<html>
<title> - KYOTO GLOBAL WARMING TREATY'S IMPACT ON OHIO'S COAL-DEPENDENT COMMUNITIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
    KYOTO GLOBAL WARMING TREATY'S IMPACT ON OHIO'S COAL-DEPENDENT 
                              COMMUNITIES

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

             Tuesday, May 13, 2003 in St. Clairsville, Ohio

                               __________

                           Serial No. 108-19

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

87-018 PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel

                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 13, 2003.....................................     1

Statement of Members:
    Ney, Hon. Robert W., a Representative in Congress from the 
      State of Ohio..............................................     3
        Prepared statement of....................................     6
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Christy, Dr. John R., Alabama State Climatologist, 
      Huntsville, Alabama........................................    48
        Prepared statement of....................................    50
        Letter submitted for the record..........................    54
    Erdos, Babe, International Executive Board Member, United 
      Mine Workers of America, District 6, Shadyside, Ohio.......    21
        Prepared statement of....................................    22
    Grisham, John C., President, Buckeye Industrial Mining Co., 
      Lisbon, Ohio...............................................    14
        Prepared statement of....................................    16
    Homrighausen, Hon. Richard, Mayor, City of Dover, Ohio.......    32
        Prepared statement of....................................    35
    Kosowski, James A., Director of Corporate Communications, 
      Wheeling-Pittsburgh Steel Corporation, Wheeling, West 
      Virginia...................................................    23
        Prepared statement of....................................    25
    Murray, Robert E., President and Chief Executive Officer, 
      Murray Energy Corporation, and The Ohio Valley Coal Company     8
        Prepared statement of....................................    11
    Obloy, Gary, Executive Director, Community Action Commission 
      of Belmont County, St. Clairsville, Ohio...................    37
        Prepared statement of....................................    38
        Letter submitted for the record..........................    42
    Trisko, Eugene M., Attorney at Law, Testifying on behalf of 
      the United Mine Workers of America, Berkeley Springs, West 
      Virginia...................................................    42
        Prepared statement of....................................    44
    Ungurean, Charles C., President, Ohio Coal Association, and 
      President and CEO, Oxford Mining Company, Coshocton, Ohio..    18
        Prepared statement of....................................    20


 OVERSIGHT FIELD HEARING ON THE ``KYOTO GLOBAL WARMING TREATY'S IMPACT 
                 ON OHIO'S COAL-DEPENDENT COMMUNITIES''

                              ----------                              


                         Tuesday, May 13, 2003

                     U.S. House of Representatives

                         Committee on Resources

                         St. Clairsville, Ohio

                              ----------                              

    The Committee met, pursuant to call, at 9:39 a.m., in 
Horizon Hall, Belmont Technical College, St. Clairsville, Ohio; 
Hon. Richard Pombo (Chairman of the Committee) presiding.
    Present: Representatives Pombo and Ney.
    The Chairman. I will call this hearing to order.
    I, at this point, would like to recognize Congressman Bob 
Ney.
    Mr. Ney. Thank you, Chairman Pombo, for coming to the 18th 
District, to Belmont County. This will be a hearing of the 
House Resources Committee.
    The process today will be we will begin with the invocation 
by Reverend Incas of the Friends Church of St. Clairsville; 
then from the VFW, we have Shorty Wier of the Veterans of 
Foreign Wars, St. Clairsville Post 5356; John Monroe, Veterans 
of Foreign Wars, Bethesda Post 9712. We also have the Scout 
Troop, Boy Scouts of America, Troop Number 23. The troop leader 
is David McCloud. The scouts are Zack Pupery and Robert 
Clayson.
    I also want to thank Union Local High School juniors, for 
coming here today to be part of witnessing the hearing on a 
very important issue to our area and to the United States. I 
also want to thank our staff, J.P. Dutton and also Chairman 
Pombo will be introducing his staff with the House Resources 
Committee; Belmont Technical College for putting this together; 
Belmont Technical Security and also the Belmont County 
Sheriff's Office for the security they provided.
    And with that, we will begin with the invocation by 
Reverend Incas.
    [Invocation.]
    Mr. Ney. And with that, if you could stand for the colors 
and the pledge of allegiance.
    [Colors presentation and pledge of allegiance.]

  STATEMENT OF RICHARD W. POMBO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    The Chairman. Thank you very much. Ladies and gentlemen, I 
am Richard Pombo and my family is involved in ranching, farming 
and trucking in California's Central Valley. I am here today at 
the request of my good friend Bob Ney, who wanted me to see 
first-hand how working men and women in the Ohio Valley are 
affected by the proposed Kyoto Treaty. It is refreshing to 
travel outside the Washington Beltway to hear from straight-
talking folks about this important issue.
    The Committee on Resources' jurisdiction includes all 
aspects of coal mining regulation and reclamation of mined 
lands. The United States' known coal reserves will last us 
centuries at current rates of consumption. Coal and steel 
produced in the Ohio Valley played a vital role in America's 
victories in two World Wars and Korea. Your smokestacks helped 
produce our Arsenal of Democracy that provides our servicemen 
and women with the tools they need to defend our nation and our 
way of life.
    Working men and women in this audience produce a commodity 
that generates over 50 percent of America's electricity. 
Regrettably, this staple of America's energy supply faces 
formidable foreign and domestic challenges.
    In 1997, the Clinton Administration signed the Kyoto Treaty 
that forces nations with the most advanced pollution control 
technologies like the United States, to drastically reduce 
their carbon dioxide emissions while countries with primitive 
pollution control technologies like China and India are 
exempted. China already burns more coal than the United States.
    At a time when people in this room have personally 
experienced the pain and trauma of massive plant closings in 
recent years, the Kyoto Treaty would add further insult to 
injury. In short, Kyoto means pink slips in French.
    Happily, Congress listened to the people in this room and 
took steps to stop the treaty. Several years ago, the U.S. 
Senate passed the Byrd-Hagel resolution 95-0, that expresses 
opposition to the Kyoto Treaty. Moreover, President Bush said 
he will not implement this treaty that would cost the Nation an 
estimated $350 billion a year. Moreover, he pointed out the 
scientific community is divided on the effect of carbon dioxide 
in the global warming equation--a view shared by several of 
today's witnesses.
    However, this week, the U.S. Senate will vote on measures 
to regulate and tax carbon dioxide.
    Although Washington is often characterized by partisan 
politics and wrangling, today's witnesses are above that. It is 
refreshing that owners of coal companies, the United Mine 
Workers of America and the Steelworkers are united today in 
protecting America from the far-reaching treaty. Moreover, a 
local social service agency will explain how higher energy 
prices will affect the neediest people in our community. 
Finally, a scientist and a local elected official will explain 
how good science and sound economics are vital to sensible 
regulations.
    Mr. Ney.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    The House Committee on Resources will come to order Ladies and 
Gentlemen, I am Richard Pombo and my family is involved in ranching, 
farming and trucking in California's Central Valley. I am here today at 
the request of my good friend, Bob Ney, who wanted me to see first-hand 
how working men and women in the Ohio Valley are affected by the 
proposed Kyoto treaty. It is refreshing to travel outside the 
Washington Beltway to hear from straight-talking folks about this 
important issue.
    The Committee on Resources' jurisdiction includes all aspects of 
coal mining regulation and reclamation of mined lands. The United 
States' known coal reserves will last us centuries at current rates of 
consumption. Coal and steel produced in the Ohio Valley played a vital 
role in America's victories in two World Wars and Korea. Your 
smokestacks helped produce our Arsenal of Democracy that provides our 
servicemen and women with the tools they need to defend our Nation and 
our way of life.
    Working men and women in this audience produce a commodity that 
generates over 50 percent of America's electricity. Regrettably, this 
staple of America's energy supply faces formidable foreign and domestic 
challenges.
    In 1997, the Clinton Administration signed the Kyoto Treaty that 
forces nations with the most advanced pollution control technologies 
like the United States to drastically reduce their carbon dioxide 
emissions while countries with primitive pollution control technologies 
like China and India are exempted. China already burns more coal than 
the U.S.
    At a time when people in this room have personally experienced the 
pain and trauma of massive plant closings in recent years, the Kyoto 
Treaty would add further insult to injury. In short, Kyoto means pink 
slip in French.
    Happily, Congress listened to the people in this room and took 
steps to stop the treaty. Several years ago the U.S. Senate passed the 
Byrd-Hagel resolution 95-0 that expresses opposition to the Kyoto 
Treaty. Moreover, President Bush has said he will not implement this 
treaty that would cost the nation an estimated $350 billion per year. 
Moreover, he pointed out the scientific community is divided on the 
effect of carbon dioxide in the global warming equation--a view shared 
by several of today's witnesses.
    However, this week the U.S. Senate will vote on measures to 
regulate and tax carbon dioxide.
    Although Washington is often characterized by partisan politics and 
wrangling, today's witnesses are above that. It is refreshing that 
owners of coal companies, the United Mineworkers of America and the 
Steelworkers are united today in protecting America from this far-
reaching treaty. Moreover, a local social service agency will explain 
how higher energy prices will affect the neediest people in your 
community. Finally, a scientist and a local elected official will 
explain how good science and sound economics are vital to sensible 
regulation.
                                 ______
                                 

STATEMENT OF THE HON. ROBERT NEY, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Ney. Thank you, Chairman Pombo, and I want to thank you 
for taking your time out of your busy schedule to come all the 
way from California to hear in particular eastern Ohio and more 
particular Belmont County.
    Also I want to thank the witnesses that are going to be 
assembled here today, a great group of witnesses that are 
important to the process of this hearing.
    As many of you know, I grew up in Blair and I live in St. 
Clairsville, so for a long time, I have known the importance of 
coal mining to our economy and also for the jobs for people to 
be able to feed their families and help their community.
    The mining industry provides excellent paying jobs to many 
individuals in our part of the state. Because of the hard work 
of those individuals, our state and our nation enjoys a 
reliable energy source at low cost. Nationwide, more than half 
of the electricity consumed in our nation comes from coal, 
which is the cheapest source of energy. In our state, the State 
of Ohio, coal accounts for nearly 90 percent of our energy 
needs. So not only does the mining industry create jobs, but it 
sustains good quality jobs.
    In addition, the industry has a direct impact on many other 
sectors of our economy. There are a number of small businesses 
in our area that heavily rely on mining companies as major 
customers of their products and services. So there are 
thousands of spin-off jobs to the jobs that coal miners provide 
directly. Rail line operators, heavy equipment manufacturers, 
repair shop owners, barge owners are just a few of the 
occupations that in one way or another are dependent on the 
coal industry and its jobs.
    That being said, Mr. Chairman, I greatly appreciate this 
opportunity to express my strong opposition to the Kyoto 
Protocol in a time of change, which I have done for many years, 
both in the state legislature and in Congress as a member of 
the House.
    As I stated in the past, the Kyoto Protocol is a severely 
flawed agreement. Simply put, the Kyoto Protocol poses 
significant risk to the future of our national economy, while 
at the same time excluding some of the world's largest 
polluters. This agreement is particularly unfair to American 
workers. While our workforce strives for increased efficiency, 
Brazil, India, Mexico and China are given a free pass. To date, 
the Kyoto Protocol has been ratified by 108 countries, but 
thanks to President Bush, the United States is not included on 
this list.
    Mr. Chairman, I have been to Kyoto, I went over to argue 
our point of view, I flew over to Kyoto to express our strong 
opposition. When the Japanese have arrived in the Congress, I 
again went to those meetings to also express our strong 
opposition. I have spoken to officials that were directly 
involved with this treaty, I have conveyed to them many of 
these same concerns that I raise here before you today.
    The Kyoto Protocol would devastate our country's economy, 
particularly the coal industry, by requiring a reduction in 
energy usage of more than 40 percent. Coal consumption would 
decline sharply as electric utilities switched to fossil fuels 
with lower emissions such as natural gas. Immediately after the 
Protocol was concluded, analysis showed that coal production 
would drop to a low of 150 million tons by 2020 if this 
agreement was enacted. In order to meet the Kyoto target, coal 
prices would decline along with demand. Consequently, revenues 
for coal producers would be reduced. To the extent possible, 
coal companies would lower their production costs by reducing 
labor or investment in productivity. Either way, it would spell 
a disaster, not only for our area, but for our country, Mr. 
Chairman.
    The Kyoto Protocol, beyond any question, will eliminate 
thousands of jobs across the country. Jobs will be lost 
throughout the industry in all coal producing states and many 
other regions in our country. In Ohio, almost all of the 3500 
coal mining jobs will be threatened. This is in addition to 
approximately 20,000 direct coal mining jobs already lost under 
the Clean Air Act, and for those workers that remain employed, 
wages and benefits will be reduced, plus the spinoff workers I 
mentioned earlier.
    The effects of the decline in coal use will extend far 
beyond the industry itself because, as I stated previously, 
coal accounts for over half of the electricity generated in 
this country today. This low-cost electricity is the basis for 
our strong economy and position in the world market. Removing 
this resource from our industrial base will have effects that 
will be felt throughout the Nation in terms of lower economic 
potential, higher prices, diminished ability to compete in 
world markets and overall employment losses. The price of 
energy will be sharply higher, consumer costs will escalate.
    But these losses are only the beginning. Millions of jobs 
will be lost in America with the elimination of low-cost energy 
due to the Kyoto Protocol. Now some in Washington do not agree 
with this and they do not understand the importance of the 
mining industry. We are going to make them understand that 
importance through hearings like this and through the force of 
the citizens that will lobby this issue to save our jobs.
    Some people feel that coal should not continue to be a 
stable source of energy for our nation's economy. Thankfully, 
President Bush is not among this group. Since taking office, 
the President has shown a strong dedication to the future use 
of coal. In fact, during his first few months in office, the 
President invited U.S. coal industry leaders and government 
officials to the White House. I was at that meeting with both 
union and company, in order to stress the importance of coal 
for his proposed national energy policy. Since that meeting, 
President Bush has committed $2 billion over the next 10 years 
for the development of clean coal technology.
    In addition, the President set up a project to build a 
zero-emission coal-fired power plant. With an administration 
committed to the future of clean coal and an industry focused 
on increased efficiency, coal will continue as a reliable 
resource of energy, while reducing this environmental impacts.
    I just want to say in closing, Mr. Chairman, as I 
mentioned, we are thankful that you are here. But also, I serve 
with the Chairman in the U.S. House of Representatives. He is 
somebody that will listen. And what he has done today is 
brought Washington, D.C. to our area. As the Chairman of the 
Committee, he is going to be involved in critical decisions 
that are going to affect many people's future in this country. 
But I am glad that we have a common sense Chairman. Since I 
have arrived in Congress, I have watched my colleague as he 
rose to the ranks of Chair this year, so he is a brand new 
Chair of the Resources Committee. But I have watched him 
operate with the workers in mind. He has not ever forgotten his 
roots, the common roots that our Chair comes from. He is 
sensitive and listening to our concerns about what is good and 
fair and balanced for the average working person in this 
country.
    You know, we have gone through a great trauma in the last 2 
years in the United States, a trauma of the likes we have not 
seen in a long time in this country. And we have to stop for a 
second today--we can serve today in the U.S. House of 
Representatives and we will go cast votes later on today in the 
U.S. House and we have people elected at all levels in this 
country. And the reason we are able to do that is because of 
the veterans, the veterans that came in here and presented 
these colors, the veterans that this very day are fighting for 
us in all parts of the world, to make sure that we have a 
democracy because a lot of people are envious of that 
democracy.
    But I have got to tell you, the talk all the time is about 
our independence. And so we appreciate the support of the 
veterans but also I think we should pay respect to the veterans 
that started this country in the revolution against England by 
standing up for ourselves and by having independence. If you 
want to talk about independence from foreign oil, Mideast oil 
and OPEC oil, we have got to have our reserves and we have got 
to develop our coal and be able to have that stand as our 
source of independence.
    So a lot of people in this valley have struggled for a 
long, long time and have fought the U.S. EPA and unfair 
environmental regulations and have fought for our steel and a 
lot of our jobs. People down here dream the dream and they have 
paid the sacrifice to make that dream come true. Many of you in 
this audience have done it. Being here today is part of the 
process of again fighting for our future and fighting for our 
jobs.
    So I thank the veterans that we are able to serve in the 
U.S. House, I thank all of you that we are able to keep our 
jobs and our economy going.
    With that, once again, we here in the 18th District, Mr. 
Chairman, so appreciate your time that you are spending with 
us. Thank you.
    [Applause.]
    [The prepared statement of Mr. Ney follows:]

 Statement of The Honorable Bob Ney, a Representative in Congress from 
                           the State of Ohio

    Thank you Mr. Chairman. I appreciate your taking the time out of 
your busy schedule to visit Eastern Ohio, in particular Belmont County. 
I would also like to thank our witnesses for their participation in 
this important hearing today.
    As many of you know, I grew up in Bellaire and live in St 
Clairsville. I have long known the importance of coal mining to our 
local economies here in Eastern Ohio. The mining industry provides 
excellent paying jobs to many individuals in our part of the state. 
Because of the hard work of these individuals, our State and our Nation 
enjoys a reliable energy source at a low cost. Nationwide more than 
half of the electricity consumed in our nation, comes from coal, which 
is the cheapest source of energy. In our State of Ohio, coal accounts 
for nearly 90 percent of our energy needs.
    Not only does the mining industry create, but it sustains quality 
jobs. In addition, the industry has a direct impact on many other 
sectors of our economy. There are a number of small businesses in our 
area that heavily rely on mining companies as major customers of their 
products and services. Rail line operators, heavy equipment 
manufacturers, repair shop owners, and barge operators are just a few 
of the occupations that are in some way dependent on the coal industry.
    That being said, Mr. Chairman, I greatly appreciate this 
opportunity to express my strong opposition to the Kyoto Protocol on 
Climate Change. As I have stated in the past, the Kyoto Protocol is a 
severely flawed agreement. Simply put, the Kyoto Protocol poses a 
significant risk to the future of our National economy while at the 
same time excluding some of the world's largest polluters. This 
agreement is particularly unfair to the American worker. While our 
workforce strives for increased efficiency, Brazil, India, Mexico and 
China are given a free pass. To date, the Kyoto Protocol has been 
ratified by 108 countries, but thanks to President Bush, the United 
States is not included on this list.
    Mr Chairman, I have been to Kyoto, Japan. I have spoken to 
officials that were directly involved with this treaty and I conveyed 
many of the same concerns that I raise today. The Kyoto Protocol would 
devastate our country's economy, particularly the coal industry, by 
requiring a reduction in energy usage of more than 40 percent. Coal 
consumption would decline sharply as electric utilities switch to 
fossil fuels with lower emissions, such as natural gas. Immediately 
after the protocol was concluded, analysis showed that coal production 
could drop to as low as 150 million tons by 2020 if this agreement is 
enacted. In order to meet the Kyoto target, coal prices would decline 
along with demand. Consequently, revenues for coal producers will be 
reduced. To the extent possible, coal companies would lower their 
production costs by reducing labor or investment in productivity. The 
Kyoto Protocol, beyond any question, will eliminate thousands of jobs 
across the country. Jobs would be lost throughout the industry in all 
coal producing states and many other regions of the country. In Ohio, 
almost all of the 3,500 coal mining jobs would be threatened. This is 
in addition to the approximately 20,000 direct coal mining jobs already 
lost under the Clean Air Act. And for those workers that remain 
employed, wages and benefits would be reduced.
    The effects of this forced decline in coal use will extend far 
beyond the industry itself, because as I stated previously, coal 
accounts for over half of all electricity generated in our country 
today. This low cost electricity is the basis for our strong economy 
and position in the world market. Removing this resource from our 
industrial base will have effects that will be felt throughout the 
Nation, in terms of lower economic potential, higher prices, diminished 
ability to compete in world markets and overall employment losses. The 
price of energy would be sharply higher and consumer costs would 
escalate. But, these losses are only the beginning. Millions of jobs 
will be lost in America with the elimination of low cost energy, due to 
the Kyoto Protocol.
    Now some in Washington do not understand the importance of the 
mining industry. They feel that coal should not continue to be a stable 
source of energy for our Nation's economy. Thankfully, President Bush 
is not among this group. Since taking office, the President has shown a 
strong dedication to the future use of coal. In fact, during his first 
few months in office, the President invited U.S. coal industry leaders 
and government officials to the White House in order to stress the 
importance of coal for his proposed national energy policy. Since that 
meeting, President Bush has committed two billion dollars over the next 
ten years for the development of clean coal technology. In addition, 
the President has set up a project to build a zero-emissions coal fired 
power plant. With an Administration committed to the future of clean 
coal and an industry focused on increased efficiency, coal will 
continue as a reliable source of energy while reducing its 
environmental impacts.
    Again, Mr. Chairman, thank you for holding this hearing. I look 
forward to the upcoming testimony.
                                 ______
                                 
    The Chairman. Thank you. Thank you very much.
    I am going to invite our first panel of witnesses, and 
ahead of time, I will apologize if I mess up any of your names. 
Mr Robert Murray, Mr. John Grisham, Mr. Charles Ungurean, Mr. 
Babe Erdos and Mr. James Kosowski, if you could join us at the 
witness table, please.
    Thank you all for joining us today. Just a little 
housekeeping note. Your entire written testimonies will be 
included in the record. We request the oral testimony be 
limited to 5 minutes or as close to that as you can do. We have 
the lights up here. The green light comes on at 5 minutes, the 
yellow light comes on when there is a minute left and then the 
red light comes on to wrap things up. So if you could try to 
stay within the 5 minutes, that will help us stay within our 
time limit for the hearing.
    And before you get too comfortable, it is customary on the 
Resources Committee that all witnesses are sworn in, so I would 
ask you to stand and raise your right hand.
    [Witnesses sworn.]
    The Chairman. Thank you. Let the record show that they all 
answered in the affirmative.
    Thank you very much for agreeing to be part of our hearing 
today. I am going to begin with Mr. Murray and let him begin 
his testimony.

   STATEMENT OF ROBERT E. MURRAY, DIRECTOR, OHIO VALLEY COAL 
             COMPANY AND THE AMERICAN ENERGY CORP.

    Mr. Murray. Chairman Pombo, Congressman Ney, thank you for 
coming to eastern Ohio for this hearing. Congressman Ney for 
inviting him.
    My name is Robert E. Murray and I am President and Chief 
Executive Officer of Murray Energy Corporation, which employs 
about 2500 persons in the most economically depressed areas of 
the United States. Our subsidiaries, American Energy 
Corporation, which is the Century Mine; Maple Creek Mining, 
Inc. and the Ohio Valley Coal Company, employ about 1400 
persons in the tri-state Ohio River Valley area and nearly 1000 
people here in Belmont County.
    Studies by the Pennsylvania State University have shown 
that up to 11 secondary jobs are created for each of the coal 
industry positions that we provide, thus making our companies 
responsible for almost 17,000 jobs in the tri-state area and 
nearly 12,000 positions here in eastern Ohio.
    But this is not where our tremendous beneficial impact on 
the area stops. Our mining employees typically earn twice the 
average household wage in Ohio and two and a half times the 
median wage for this area. American Energy's Century Mine here 
in Belmont County is the largest single economic development in 
Ohio in recent years, representing over a $300 million 
investment in this area.
    The subject of the Kyoto Global Warming Treaty is a human 
issue to me, not an environmental matter, Chairman Pombo and 
Congressman Ney. You see, I know the names of many of the 
people whose jobs, standards of living and lives would be 
destroyed in this area if the United Nations' Kyoto Global 
Warming Treaty were ever adopted by the United States.
    This region is desperate for good paying and well benefited 
jobs, our people just want to earn a reasonable living with 
honor and dignity. Our young people want to stay in the area 
and have good employment. Many times, grown men and women have 
broken down and cried in my office when I told them that we had 
a job for them. They know that, with the high pay and excellent 
benefits provided by coal mining, they can build the lives of 
their dreams, be with their families and retire with dignity.
    But this region came close to being economically 
devastated, as the Administration of Bill Clinton and Albert 
Gore signed the United Nations' Kyoto Protocol on so-call 
global warming and for years urged its passage by the U.S. 
Senate. Wisely, the Senate would not ratify their Draconian 
treaty. Passage of the Kyoto Protocol would have eventually 
eliminated the U.S. coal industry and the 17,000 primary and 
secondary jobs for which our companies are responsible in this 
tri-state area. Indeed, the Clinton/Gore administration had a 
motto that they were going to ''dial out coal.``
    Fortunately, President Bush condemned the United Nation's 
Kyoto Protocol soon after he took office and announced that our 
country would no longer be a part of this flawed agreement. On 
March 13, 2001, he said:
    ''As you know, I oppose the Kyoto Protocol because it 
exempts 80 percent of the world, including major population 
centers, such as China and India, from compliance, and would 
cause serious harm to the U.S. economy.``
    President Bush has chosen an entirely different way to 
address the climate issue, one based on research, technology 
and voluntary action. This path will encourage economic growth, 
not stifle it. It will allow greater use of our nation's most 
abundant and lowest cost energy source--coal--rather than 
devastate the industry and this area.
    The President has received much pressure from radical 
environmentalists and no-growth advocates in the U.S., as well 
as the international community, to reverse his decision. But 
even the most ardent supporters of the Protocol, the members of 
the European Community, who are really using this issue to gain 
economic advantages over the United States for their products 
in the global marketplace, are having difficulty achieving the 
mandatory carbon dioxide emissions reductions that they set for 
themselves. And it is important to point out that the Kyoto 
Protocol has not yet gone into force.
    Very importantly, there is no scientific consensus that so-
called global warming is even occurring. Moreover, there is no 
scientific evidence that human activities are responsibile.
    As an engineer, I have followed this issue for nearly two 
decades. The best analysis that I ever read is that prepared by 
Professor Bjorn Lomborg, an academic who was a former member of 
Greenpeace and a devoted environmentalist. Dr. Lomborg has 
compared the projected changes in the world's temperatures for 
the next 100 years, both with the Kyoto Treaty and without the 
Treaty. Dr. Lomborg has concluded that:
    If we observe the Kyoto Treaty by enforcing all of its 
provisions, by the year 2100, 97 years from now, the 
temperature is expected on earth to rise 1.92 degrees Celsius. 
Now that is with the Kyoto Treaty.
    Without it, that temperature will be reached in 2094, 6 
years sooner.
    In 2010, compliance with the Kyoto Protocol will cost $350 
billion per year, increasing to nearly one trillion dollars 
annually by 2050. To put this into perspective, Professor 
Lomborg calculates that, for $200 billion, every human being on 
earth could have clean drinking water and sanitation, saving 
two million lives a year.
    Remember, this is from work of an avid environmentalist.
    Mandatory restrictions on carbon dioxide emissions, whether 
imposed by the United Nations' Kyoto Protocol or by 
restrictions such as those that are currently proffered by some 
U.S. Senators, would have a devastating effect on the 
communities in the tri-state area. The Kyoto Treaty would 
require a reduction of greenhouse emissions to 7 percent below 
1990 levels by 2008, notwithstanding that there is no 
scientific evidence that proves that such reductions are 
beneficial or necessary. Our nation would have to reduce 
emissions by close to 40 percent from current levels in just 5 
years to meet the Draconian Kyoto Treaty goals. We applaud 
President Bush for recognizing the Kyoto Treaty for what it is, 
a political agreement pushed by a previous administration with 
no regard to America's economy or citizens, and particularly 
those people in this area.
    Regarding the economic devastation of the ill-conceived 
Kyoto Treaty, the most recent study by the Heartland Institute 
showed that if emissions had to be reduced to 1990 levels--and 
that is not as low as the Kyoto Protocol requires--the Ohio 
State government would lose a minimum of $1.2 billion of 
revenue annually and consumers and businesses in our state 
would pay $3.2 billion and $32 billion respectively more for 
Federal and state programs to reduce carbon dioxide emissions.
    To put this in perspective, that would be $8000 per year 
for every household in Ohio--just to get to the earlier level, 
which is 1990 and not before--and to comply with the Kyoto 
Protocol would cost every household in this state $14,000 per 
year--$14,000 per year for every household in Ohio! Clearly 
these numbers prove the folly of even thinking about agreeing 
to mandatory carbon dioxide controls in any form.
    As for coal, there is very little production of this fuel 
in the United States, there will be practically none. The 
Energy Information Administration of the U.S. Department of 
Energy analyzed the effects of the Kyoto Protocol and 
determined that it would cause a 67 percent reduction in 
national coal production levels by 2010, and a 90 percent drop 
by 2020, even a little worse, Congressman, than you mention. 
And this is from the Department of Energy.
    In short, by 2020, there would be no coal industry in Ohio, 
from which 87 percent of the state's electricity is generated. 
Furthermore, coal-fired electricity costs about one-third the 
cost of electricity from natural gas and it is even more 
economic than that compared to nuclear power.
    A better way to address the climate issue is by the plan 
outlined by the President in February 2002, which as I stated 
before, is based on science, research, technology, efficiency 
and voluntary action. Such a proposal will determine whether 
carbon dioxide reductions are really beneficial, or not. If 
carbon dioxide reductions are proven to be necessary, we will 
then be on our way. If not, we will be moving forward with 
advanced clean coal technologies.
    There currently are several initiatives in Washington that 
will directly keep coal in the energy mix. On the Congressional 
front, the U.S. House of Representatives just passed--and I 
congratulate you for it--H.R. 4, the Energy Policy Act of 2003. 
This legislation includes two important provisions that we 
need--to get advanced technologies into coal-fired electricity 
generating plants, existing plants, and to build new ones. H.R. 
4 also includes the authorization for basic coal research for 
the President's $2 billion clean coal power initiative, which 
will demonstrate advanced clean coal technologies.
    The aforementioned two provisions are also included in the 
Senate Bill, S. 14, that is now being debated on the Senate 
Floor. But S. 14 includes a third important element that was 
left out of the House legislation. The Senate bill will include 
the very important production and investment tax credits for a 
limited number of plants, to encourage rapid use of advanced 
new clean coal technologies. It is important, Congressmen, that 
you support these provisions in the Conference, which I know 
you will.
    Not only is the coal industry opposed to mandatory 
reductions of carbon dioxide emissions, we are also opposed to 
a program that would require mandatory reporting on emissions 
as well as the schemes that would lead to carbon dioxide 
emissions trading. The voluntary approach that the industry is 
supporting will be the best way to preserve Ohio and tri-state 
area jobs and hold down electric rates for households and 
factories that must compete in the global marketplace.
    The coal industry in the United States at this time is 
being economically devastated. Practically all the major 
eastern U.S. coal producers are currently unprofitable or 
currently in bankruptcy. This is largely the result of the 
depressed economy, huge amount of construction of new natural 
gas-fired electric generating units during the Clinton/Gore 
years, and the importation of cheap coal from South America. 
This is the worst possible time for some in Congress to be 
advocating any mandatory requirements regarding carbon dioxide 
emissions measuring, reductions or trading.
    Mr. Chairman, Congressman Ney, we commend you for holding 
this field hearing on the devastating effects that any attempt 
to put restrictions on carbon dioxide emissions would have on 
the people and communities of this tri-state area of the Ohio 
River Valley. As I stated previously, the Kyoto Protocol and 
proposed carbon dioxide emission reductions is a human issue to 
me, rather than environmental, as I know the names of many of 
the individuals in this area whose jobs, lives and quality of 
life would be destroyed under the Kyoto Treaty or any other 
program for mandatory reductions in carbon dioxide emissions.
    Thank you very much.
    [The prepared statement of Mr. Murray follows:]

 Statement of Robert E. Murray, President and Chief Executive Officer, 
                       Murray Energy Corporation

    Chairman Pombo and Congressman Ney, my name is Robert E. Murray, 
and I am President and Chief Executive Officer of Murray Energy 
Corporation (``Murray Energy''), which employees about 2,500 persons in 
the most economically depressed areas of the United States. Our 
Subsidiaries, American Energy Corporation, Maple Creek Mining, Inc., 
and The Ohio Valley Coal Company, employ about 1,400 persons in the 
tri-State Ohio River Valley area, and nearly 1,000 people here in 
Belmont County.
    Studies at The Pennsylvania State University have shown that up to 
eleven (11) secondary jobs are created for each coal industry position 
that we provide, thus making our Companies responsible for almost 
17,000 jobs in this tri-State area, and nearly 12,000 positions in 
Eastern Ohio.
    But, this is not where our tremendous beneficial impact on this 
region stops. Our mining employees typically earn twice the average 
household wage in Ohio and two-and-one-half times the median wage for 
this area. American Energy Corporation's Century Mine here in Belmont 
County is the largest single economic development in Ohio in recent 
years, representing an over $300 million investment in our area.
    The subject of the ``Kyoto Global Warming Treaty'' is a human 
issue, not an environmental matter, to me, Chairman Pombo and 
Congressman Ney. You see, I know the names of many of the people whose 
jobs, standards of living, and lives would be destroyed in this area if 
the United Nations' ``Kyoto Global Warming Treaty'' were ever adopted 
by the United States.
    This region is desperate for good paying and well-benefitted jobs. 
Our people just want to earn a reasonable living with honor and 
dignity. Our young people want to stay in the area and have good 
employment. Many times grown men and women have broken down and cried 
in my office when I told them that we had a job for them. They know 
that, with the high pay and excellent benefits provided by coal mining, 
they can build the lives of their dreams, be with their families, and 
retire with dignity.
    But, this region came close to being economically devastated, as 
the Administration of Bill Clinton and Albert Gore signed the United 
Nations' Kyoto Protocol on so-called global warming and for years urged 
its passage by the United States Senate. Wisely, the Senate would not 
ratify their draconian treaty. Passage of the United Nations Kyoto 
Protocol would have eventually eliminated the U.S. coal industry and 
the 17,000 primary and secondary jobs for which my Companies are 
responsible in this tri-State area. Indeed, the Clinton/Gore 
Administration had a motto that they were going to ``dial out coal.''
    Fortunately, President George W. Bush condemned the United Nations' 
Kyoto Protocol soon after he took office and announced that our Country 
would no longer be a part of this flawed agreement. On March 13, 2001, 
President Bush said:
        ``As you know, I oppose the Kyoto Protocol because it exempts 
        eighty (80) percent of the world, including major population 
        centers, such as China and India, from compliance, and would 
        cause serious harm to the U.S. economy.'' <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Letter from President Bush to Senator Chuck Hagel, March 13, 
2001.
---------------------------------------------------------------------------
    President Bush has chosen an entirely different way to address the 
climate issue, one based on research, technology, and voluntary action. 
This path will encourage economic growth, not stifle it. It will allow 
greater use of our Nation's most abundant and lowest cost energy 
source, coal, rather than devastate the industry and this area.
    The President has received much pressure from radical 
environmentalists and no-growth advocates in the U.S., as well as the 
international community, to reverse his decision. But, even the most 
ardent of supporters of the Protocol, the members of the European 
Community, who are using this issue to gain economic advantages over 
the U.S. for their products in the global marketplace, are having 
difficulty achieving the mandatory carbon dioxide emissions reductions 
that they set for themselves. And, it is important to point out that 
the Kyoto Treaty has yet to go into force.
    Very importantly, there is no scientific consensus that so-called 
global warming is even occurring. Moreover, there is no scientific 
evidence that human activities are responsible.
    As an engineer, I have followed the so-called global warming matter 
for more than two decades. The best analysis that I have read is that 
prepared by Professor Bjorn Lomborg, an academic who is a former 
Greenpeace member and devoted environmentalist. Dr. Lomborg has 
compared the projected changes in the world's temperatures for the next 
one hundred years--both with the Kyoto Treaty and without. Dr. Lomborg 
has concluded that:
    <bullet> LIf we observe the Kyoto Treaty by enforcing all of its 
provisions, by the year 2100 (when our new granddaughter will be 97 
years old), the temperature is expected to increase by 1.92 degrees 
Celsius.
    <bullet> LWithout implementation of the Kyoto Treaty, the 
temperature will reach that level by 2094 (when our granddaughter will 
be 91 years old), six (6) years sooner than with the Protocol.
    <bullet> LIn 2010, compliance with the Kyoto Treaty will cost $350 
billion per year, increasing to nearly one trillion dollars annually by 
2050. To put this into perspective, Professor Lomborg calculates that, 
for $200 billion per year, every human being on Earth could have clean 
drinking water and sanitation, saving two million lives each year.
    Mandatory restrictions on carbon dioxide emissions, whether imposed 
by the United Nations' Kyoto Protocol or by restrictions such as those 
currently being proffered by some Senators, would have a devastating 
effect on the communities in this tri-State area. The Kyoto Treaty 
would require a reduction of greenhouse emissions to seven percent (7%) 
below 1990 levels by 2008, notwithstanding that there is no scientific 
evidence that proves that such reductions are beneficial or necessary. 
Our Nation would have to reduce emissions by close to forty percent 
(40%) from current levels in just five (5) years to meet the draconian 
Kyoto Treaty goals. We applaud President Bush for recognizing the Kyoto 
Treaty for what it is, a political agreement pushed by the Clinton/Gore 
Administration with no regard for America's economy or citizens, and 
particularly those in this area.
    Regarding the economic devastation of the ill-conceived Kyoto 
Treaty, the most recent study by the Heartland Institute <SUP>2</SUP> 
showed that if emissions had to be reduced to 1990 levels--and that is 
not as low as the Kyoto Treaty would have required--the Ohio state 
government would lose a minimum of $1.2 billion in revenue annually, 
and consumers and businesses in our State would pay $3.2 billion and 
$32 billion, respectively, more for Federal and state programs to 
reduce carbon dioxide emissions.
---------------------------------------------------------------------------
    \2\ Blast, J. L., Taylor, J. M., Lehr, J. (2003). State Greenhouse 
Gas Programs: An Economic and Scientific Analysis. The Heartland 
Institute. Policy Study 101.
---------------------------------------------------------------------------
    Furthermore, based on the Heartland Institute study, each household 
in Ohio would pay over $8,000 per year for just the reduction to 1990 
levels, and reaching the Kyoto Treaty targets would cost every Ohio 
household $14,000 annually. Clearly, these numbers prove the folly of 
even thinking about agreeing to mandatory carbon dioxide controls in 
any form.
    As for coal, there would be very little production of this fuel in 
the United States under a Kyoto type regime. The Energy Information 
Administration of the U.S. Department of Energy, analyzed the affects 
of a Kyoto Treaty on the energy markets and determined that it would 
cause a sixty-seven (67%) reduction in National coal production levels 
by 2010, and a 90% drop by 2020. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Energy Information Administration (1998). Impacts of the Kyoto 
Protocol on U.S. Energy Markets and Economic Activity. U.S. Department 
of Energy. SR/OIAF/98-03.
---------------------------------------------------------------------------
    In short, by 2020 there would be no coal industry in Ohio, from 
which eighty-seven percent (87%) of the State's electricity is 
generated. Furthermore, coal fired electricity costs about one-third 
(1/3) that from natural gas fired generation, and is even more 
economical than this over nuclear generated electricity.
    A better way to address the climate issue is by the plan outlined 
by President Bush in February, 2002, which, as I have stated before, is 
based on science, research, technology, efficiency, and voluntary 
actions. Such an approach will determine whether carbon dioxide 
emission reductions are beneficial or necessary, or not. If carbon 
dioxide reductions are proven to be necessary, we will be on our way. 
If they are not, we will still be moving well down the road to the more 
efficient use of coal with new technologies.
    There currently are several initiatives in Washington that will 
directly keep coal in the energy mix. On the Congressional front, the 
U.S. House of Representatives has just passed H.R. 6, the Energy Policy 
Act of 2003. This legislation includes two important provisions that we 
need to get advanced clean coal technologies into existing coal fired 
electricity generating plants and to build new ones. H.R. 6 also 
includes authorization for basic coal research and for the President's 
$2 billion Clean Coal Power Initiative, which will demonstrate advanced 
clean coal technologies.
    The aforementioned two provisions are also included in the Senate 
Bill, S. 14, that is now being debated on the Senate floor. But, S. 14 
includes a third important element that was left out of the House 
passed legislation. The Senate Bill will include very important 
production and investment tax credits for a limited number of plants to 
encourage rapid use of new advanced clean coal technologies. It is 
important, Mr. Chairman and Congressman Ney, that you support the 
inclusion of these tax provisions in the final bill that goes to the 
President's desk.
    Another important initiative that the Administration has announced 
is the FutureGen Program, which is a $1 billion, ten (10) year, 
demonstration project to create the World's first coal-based, zero 
emissions, electricity and hydrogen power plant. The plant will capture 
carbon dioxide emissions and will be coupled with carbon sequestration 
so that it is literally a zero emissions plant. Over the long term, 
coal can be the major source for hydrogen energy for our Country.
    Mr. Chairman, not only is the coal industry opposed to mandatory 
reductions of carbon dioxide emissions, we are also opposed to programs 
that would require mandatory reporting on emissions, as well as schemes 
that would lead to carbon dioxide emissions trading. The voluntary 
approach that the industry is supporting will be the best way to 
preserve Ohio and tri-State area jobs and hold down electric rates for 
our households and our factories that must compete in the global 
marketplace.
    The coal industry in the United States, at this time, is being 
economically devastated. Practically all of the major eastern U.S. coal 
producers are unprofitable or are currently in bankruptcy. This is 
largely the result of the depressed economy, huge amount of 
construction of new natural gas fired electricity generating units 
during the Clinton/Gore years, and importation of cheap coal from South 
America. This is the worst possible time for some in Congress to be 
advocating any mandatory requirements regarding carbon dioxide emission 
measuring, reductions, or trading.
    Mr. Chairman and Congressman Ney, we commend you for holding this 
field hearing on the devastating effects that any attempt to put 
restrictions on carbon dioxide emissions would have on the people and 
communities in this tri-State area of the Ohio River Valley. As I 
stated previously, the Kyoto Treaty and proposed carbon dioxide 
emission reductions is a human issue with me, rather than 
environmental, as I know the names of many of the individuals in this 
area whose jobs, lives, and quality of life would be destroyed under 
the Kyoto Treaty or any other program for mandatory reductions in 
carbon dioxide emissions.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you. Mr. Grisham.

             STATEMENT OF JOHN GRISHAM, PRESIDENT, 
                 BUCKEYE INDUSTRIAL MINING CO.

    Mr. Grisham. Mr. Chairman, Congressman Ney, ladies and 
gentlemen, my name is John Grisham. I am the President of 
Buckeye Industrial Mining Company, a small, northern 
Appalachian coal company with a large multi-county employment 
impact. I am honored to be included in the distinguished group 
from whom you will hear testimony today, and I thank you for 
coming to Ohio to hear from Ohioans, among others, on the 
critically important issue of the economic impact of climate 
change policy.
    As I look at the testimonial subject before the Committee, 
I know that today you will hear about large numbers of miners 
whose livelihood is threatened by the policy initiatives being 
considered under the umbrella of the Kyoto Global Warming 
Treaty. You will hear about the employment multiplier of mining 
jobs which ranges from seven to ten to one, depending upon the 
source. You will hear about the scarcity of employment 
alternatives in the regions where coal is mined and the lack of 
opportunity which even approaches the compensation levels found 
in the mining industry. You will hear that as the mining 
industries, so goes the regional economy.
    Of course, we have all heard it said that these are 
colloquial concerns and as such do not deserve consideration in 
the context of a global issue like climate change and its 
myriad catastrophic implications. I believe that this is the 
logical flaw in the debate, as the social and economic 
consequences of the Kyoto Treaty in our coal fields are a 
microcosm of the consequences to the American economy and 
society in general. I am sure that the members of this 
Committee have heard this same argument before, probably many 
times. It is the fact that there are those among our national 
leaders who continue to flirt with global regulation of CO2, 
carbon taxes, et cetera, while the science is so widely debated 
and disputed that it gives many of us pause. Do they understand 
the consequences? And if so, why are they willing to act so 
precipitously with the future of our nation's economy at stake.
    I would be remiss not to digress to the point that I 
consider my association with coal miners to be one of the most 
gratifying parts of my professional experience, the experience 
which began with a few years as a line officer among the proud 
professionals of the U.S. Army. Coal miners are very much like 
soldiers, as they too are justifiably proud professionals. They 
are among the most productive workers anywhere. Every time the 
bar is raised to do more, they meet the challenge with 
determination and grit and a bring-it-on attitude which has 
consistently met the energy challenge of America. They do their 
work with the intense pride and professionalism that come only 
from the confident knowledge that they are doing a very 
difficult and very important job, very well.
    Having said all that, we must broaden our vision to include 
all of Ohio. We must look up the Ohio River at the remnants of 
the beleaguered Ohio Valley steel industry, which as we all 
know is scrambling for any slight advantage in the global 
marketplace. We can look across the state to see of the steel, 
automotive, chemical and petrochemical, light and heavy 
manufacturing, et cetera companies which combine to make Ohio 
one of the most significant industrial states in our country. 
Low-cost electricity has been the foundation of keeping and/or 
attracting industry to Ohio.
    It is appropriate to expand this vision once more to 
include all of the industrial base of this country and to 
evaluate its dependence upon readily available, reliable, low-
cost electricity. Let us face it, coal-fired electricity is 
alone in its ability to satisfy all of these requirements 
simultaneously. We cannot dismiss the value of competing fuels 
in the total energy mix or even in the generation of 
electricity, nor can we dismiss the environmental 
considerations associated with the different sources of 
electric power. But we certainly cannot put them on equal 
footing with coal when it comes to meeting the requirements of 
the electricity consuming industries of America. And of course, 
these industries are the employers of many millions of 
Americans across our nation.
    Meeting these energy requirements with reliable, readily 
available and low cost is not a choice in the marketplace of 
employment. And Americans must not be misled when it comes to 
the competitive importance of electricity in the global 
economy. They cannot be lured into believing that the costs of 
environmental policy can always be defined as a few cents on 
your household electric bill.
    We must carefully contemplate our national interest as 
separated from the stated goals of the world community as 
enumerated by the United Nations. In the Iraqi war, Americans 
have been jolted by the positions of the United Nations and our 
presumed allies like the French and Germans. We have discovered 
that their perspectives are dramatically and primarily 
influenced by self-interest as it relates to the war.
    So it is with the Kyoto Treaty. Simply stated, many see the 
overwhelming strength of the United States as an impediment to 
development in other countries and as an obstacle to a future 
world government as envisioned by some at the United Nations 
and elsewhere. David Wojick of the Electricity Daily commented 
in Insight Magazine, March 12, 2001 that the U.N.'s 
Intergovernmental Panel on Climate Change message is 
``painfully simple. What the IPCC is doing is not science. It 
is politics--specifically the politics of global governance.''
    Part of the American advantage is the availability, 
reliability and cost of energy in general and electricity in 
particular. Many observers believe the Kyoto Treaty has coal in 
its cross hairs for the very reason of its significance to the 
U.S. economy. We must ask that our political leaders not allow 
the disguise of political and economic objective as a 
legitimate environmental one. We must guard against what Dr. 
Thomas Hopkins of the Rochester Institute of Technology 
described as ``good intentions gone awry''. He went further to 
describe air policy in this country as the ``coupling of noble 
intentions with tunnel vision.''. That Americans embrace 
protection of the environment is a good thing, that they run 
the risk of being cynically abused for their good intentions is 
a bad thing. Indeed, Wifred Beckerman of Oxford University has 
produced a new book which says it all. It is aptly titled A 
Poverty of Reason, Sustainable Development and Economic Growth, 
and strongly suggests that we risk doing great harm to the 
biosphere by taking precipitous action to protect it.
    Implementation of the Kyoto Treaty will involve a cap and 
trade scheme which has been rightfully described as nothing 
less than a monumental wealth transfer, primarily from the 
United States and primarily to those countries which have 
generated credits since the base year and to the developing 
countries which are exempt from the caps anyway. One can 
envision large amounts of money going to, for example, Germany 
with a large number of credits created by the absorption of 
former East Germany with its major original pollution problems.
    The distinguished economist, Dr. Murray Weidenbaum, now at 
Washington University in St. Louis and formerly Chair of the 
White House Council of Economic Advisors, made a typically to 
the point presentation to the Committee on New American 
Realities of the National Policy Association in the fall of 
1997. Called ``An Agnostic Examination of the Case for Action 
on Global Warming,'' it is an eloquent presentation of the case 
against taking action against global warming, specifically 
because of the real and potential economic consequences. One of 
the issues which Dr. Weidenbaum takes up is the comparison of 
the global cap and trade scheme with the domestic SO2 program 
under the Clean Air Act Amendments of 1990. He says, ``Here is 
one time, however, that consideration should be given to the 
distributional aspects of the proposal; that is, who benefits 
and who bears the costs. Such analysis shows the unexpected 
result that emissions trading among nations is, in effect, a 
massive shift of income and wealth....I do not see any support 
among Americans for that type of stealthy cross-border 
philanthropy.''
    I was not invited to comment on the science of Global 
Climate Change, and noting that Dr. Christy will testify, I 
certainly do not feel so compelled, much less qualified. I 
believe that prominent climatologists, astrophysicists and 
other atmospheric scientists are the only persons qualified to 
guide us in the debate over the science of global climate 
change.
    In conclusion, we should hope that we have the patience and 
determination to allow adequately funded scientific research to 
progress without interference from those who seek to manipulate 
the subject for political or economic gain.
    Thank you very much.
    [The prepared statement of Mr. Grisham follows:]

                 Statement of John Grisham, President, 
                   Buckeye Industrial Mining Company

    Mr. Chairman, Members of the Committee, Ladies and Gentlemen, my 
name is John Grisham. I am the President of Buckeye Industrial Mining 
Co, a small northern Appalachian coal company with a large, multi-
county, employment impact. I am honored to be included in the 
distinguished group from whom you will hear testimony today, and I 
thank you for coming to Ohio to hear from Ohioans, among others, on the 
critically important issue of the economic impact of climate change 
policy.
    As I look at the testimonial subject before the Committee, I know 
that today you will hear about large numbers of miners whose livelihood 
is threatened by the policy initiatives being considered under the 
umbrella of the Kyoto Global Warming Treaty. You will hear about the 
employment multiplier of mining jobs which ranges from 7:1 to 10:1 in 
Appalachia, depending upon the source. You will hear about the scarcity 
of employment alternatives in the regions where coal is mined, and the 
lack of opportunity which even approaches the compensation levels found 
in the mining industry. You will hear that as the mining industry goes, 
so goes the regional economy. Of course, we have all heard it said that 
these are colloquial concerns and as such do not deserve consideration 
in the context of a global issue like climate change with its myriad 
catastrophic implications. I believe this is the logical flaw in the 
debate, as the social and economic consequences of the Kyoto Treaty in 
our coal fields are a microcosm of the consequences to the American 
economy and society in general. I'm sure that the members of this 
Committee have heard this same argument before, probably many times. It 
is the fact that there are those among our national leaders who 
continue to flirt with global regulation of CO2, carbon taxes, etc., 
while the science is so widely debated and disputed by professionals in 
the science of climate change, that gives so many of us pause. Do they 
understand the consequences, and if so, why are they willing to act so 
precipitously with the future of our nation's economy at stake? I would 
be remiss not to digress to the point that I consider my association 
with coal miners to be one of the most gratifying parts of my 
professional experience, experience which began with a few years as a 
line officer among the proud professionals of the U.S. Army. Coal 
miners are very much like soldiers as they, too, are justifiably proud 
professionals. They are among the most productive workers anywhere. 
Every time the bar is raised to do more, they meet the challenge with 
determination and grit and a ``bring it on'' attitude which has 
consistently met the energy challenge of America. They do their work 
with the intense pride and professionalism that come only from the 
confident knowledge that they are doing a very difficult and very 
important job very well.
    Having said all of that, we must broaden our vision to include all 
of Ohio. We can look up the Ohio River at the remnants of the 
beleaguered Ohio Valley steel industry which, as we all know, is 
scrambling for any slight advantage in its global marketplace. We can 
look across the state to see more of the steel, automotive, chemical 
and petrochemical, light and heavy manufacturing, etc., companies, 
which combine to make Ohio one of the most significant industrial 
states in our country. Low-cost electricity has been at the foundation 
of keeping and/or attracting industry to Ohio.
    It is appropriate to expand this vision once more to include all of 
the industrial base of this country, and to evaluate its dependence 
upon readily available, reliable, low-cost electricity. Let's face it, 
coal-fired electricity is alone in its ability to satisfy all of these 
requirements simultaneously. We cannot dismiss the value of competing 
fuels in the total energy mix or even in the generation of electricity, 
nor can we dismiss the environmental considerations associated with the 
different sources of electric power. But we certainly cannot put them 
on equal footing with coal when it comes to meeting the requirements of 
the electricity-consuming industries of America. And, of course, these 
industries are the employers of many millions of Americans across our 
nation. Meeting these energy requirements- reliable, readily available 
and low cost- is not a ``choice'' in this marketplace of employment, 
and Americans must not be misled when it comes to the competitive 
importance of electricity in the global economy. They cannot be lured 
into believing that the cost of environmental policy can always be 
defined as a ``few cents on your household electric bill''.
    We must carefully contemplate our national interests as separate 
from the stated goals of the world community as enumerated by the 
United Nations. In the Iraqi War Americans have been jolted by the 
positions of the UN and of presumed allies like the French and Germans. 
We have discovered that their perspectives are dramatically and 
primarily influenced by self-interest as it relates to the war. So it 
is with the Kyoto Treaty. Simply stated, many see the overwhelming 
strength of the U.S. as an impediment to development in other 
countries, and as an obstacle to a future world government as 
envisioned by some at the UN and elsewhere. David Wojick of Electricity 
Daily commented in Insight (March 12, 2001) that the UN's 
Intergovernmental Panel on Climate Change (IPCC) message ``is painfully 
simple. What the IPCC is doing is not science. It is politics-
specifically, the politics of global governance.'' Part of the American 
advantage is the availability, reliability and cost of energy in 
general, and electricity in particular. Many observers believe that The 
Kyoto Treaty has coal in its crosshairs for the very reason of its 
significance to the U.S. economy. We must ask that our political 
leaders not allow the disguise of a political and economic objective as 
a legitimate environmental one. We must guard against what Dr. Thomas 
D. Hopkins of the Rochester Institute of Technology described as ``good 
intentions gone awry''. He went further to describe air policy in this 
country as the ``coupling of noble intentions with tunnel vision''. 
That Americans embrace protection of the environment is a good thing, 
that they run the risk of being cynically abused for their good 
intentions is a bad thing. Indeed, Wilfred Beckerman of Oxford 
University has produced a new book which says it all. It is aptly 
titled A Poverty Of Reason, Sustainable Development and Economic 
Growth, and strongly suggest that we risk doing great harm to the 
biosphere by taking precipitous action to protect it.
    Implementation of the Kyoto Treaty will involve a cap and trade 
scheme which has rightly been described as nothing less than a 
monumental wealth transfer, primarily from the US, and primarily to 
those countries which have generated credits since the base year, and 
to the developing countries which are exempt from the caps anyway. One 
can envision large amounts of money going to, for example, Germany with 
a large number of credits (created by the absorption of former East 
Germany with its major air pollution problems). The distinguished 
economist, Dr. Murray Weidenbaum, now at Washington University in St. 
Louis and formerly Chair of the White House Council of Economic 
Advisors, made a typically to the point presentation to the Committee 
on New American Realities of the National Policy Association in the 
fall of 1997. Called ``An Agnostic Examination of the Case for Action 
on Global Warming'',it is an eloquent presentation of the case against 
taking action against global warming, specifically because of the real 
and potential economic consequences. One of the issues which Dr. 
Weidenbaum takes up is the comparison of the global cap and trade 
scheme with the domestic SO2 trading program under the Clean Air Act 
Amendments of 1990. He says, ``Here is one time, however, that 
consideration should be given to the `distributional' aspects of the 
proposal, that is, who benefits and who bears the costs. Such analysis 
shows the unexpected result that emissions trading among nations is, in 
effect, a massive shift of income and wealth...I do not see any support 
among Americans for that type of stealthy cross-border philanthropy.''
    I was not invited to comment on the science of ``Global Climate 
Change'', and noting that Dr. Christy will testify, I certainly do not 
feel so compelled, much less qualified. I believe that prominent 
climatologists, astrophysicists, and other atmospheric scientists are 
the only persons qualified to guide us in the debate over the science 
of global climate. In conclusion, we should hope that we have the 
patience and determination to allow adequately funded scientific 
research to progress without interference from those who seek to 
manipulate the subject for political or economic gain.
                                 ______
                                 
    The Chairman. Thank you very much. Mr. Ungurean.

           STATEMENT OF CHARLES UNGUREAN, PRESIDENT, 
                     OXFORD MINING COMPANY

    Mr. Ungurean. Good morning. My name is Charles Ungurean. 
Chairman Pombo, Congressman Ney, I thank you for the 
opportunity to be here today to testify before the Committee on 
Resources.
    I am President and CEO of Oxford Mining Company, the 
largest producer of surface mined coal in Ohio.
    Oxford currently employs more than 300 employees. We have 
operations in nine strategically located Ohio counties, 
producing coal from six different coal seams. With our current 
coal reserves, we can maintain these production rates for the 
next 25 years, as long as Ohio utilities continue to burn Ohio 
coal.
    I also serve as Chairman of the Ohio Coal Association. The 
Ohio Coal Association represents producers, brokers and other 
related industry members with the aim of advancing the 
development and utilization of Ohio coal as an abundant and 
environmentally sound energy source. The association exists in 
large part because we employ more than 2600 Ohioans, and 
because Ohio coal producers know there is a 400-year reserve of 
affordable and increasingly clean Ohio waiting to be used to 
generate electricity.
    Our association commissioned a study in late 2002 of the 
economic benefits of Ohio's coal industry to the state. The 
study found that Ohio's coal industry provided a total economic 
benefit of $3 billion to the state. More than $450 million of 
that is in direct benefits, such as payroll taxes and salaries.
    Despite the significant benefits of coal for Ohio, and for 
our nation, there are proposals that threaten to negatively 
impact our industry and jeopardize the high-wage coal industry 
jobs that are of paramount importance in Appalachian Ohio. One 
of those proposals is the Kyoto Protocol, also known as the 
United Nations Treaty on Global Climate Change.
    Implementation of the Kyoto Protocol would devastate the 
coal-based electricity industry in Ohio and the nation. In 
1998, the U.S. Energy Information Agency, which is the U.S. 
Department of Energy's forecasting arm, found that coal would 
fuel less than 10 percent of all electricity generation in the 
U.S. under the greenhouse gas reductions called for by the 
Kyoto Treaty. That would mean about an 80 percent reduction in 
coal's electric-generation market share. The resulting impact 
on Ohio's coal industry would be crippling--mine closings, job 
loss and severe economic fallout.
    President Bush made the right decision to reject the Kyoto 
Protocol in March of 2001, refocusing the debate instead on 
policy based on technological innovation and economic 
incentives. History shows us that this will result in greater 
emissions reductions with lower economic costs to U.S. 
consumers and businesses.
    Today, coal provides the fuel for nearly 90 percent of 
Ohio's electricity and is a major reason Ohioans enjoy 
affordable energy. On average, coal is available at about half 
the cost of other fossil fuels, and the state's abundant 
reserves can ensure that Ohioans will have a ready, reliable 
supply of affordable energy close at hand for generations to 
come. Coal plays an important role in keeping electric power 
costs competitive, which is critical to the survival of Ohio's 
strong manufacturing sector. Directly and indirectly, 
manufacturing provides more than half of all jobs in the state.
    While affordable energy is good news, coal's opponents 
continue to challenge the viability of coal as an energy 
resource due to air quality concerns. However, the data 
suggests that this is an extreme point of view.
    Ohio has made significant environmental progress since the 
Clean Air Act became law in the 1970's. The Ohio Environmental 
Protection Agency recently released its new 30-year air quality 
trend report and found that Ohio's air quality has improved 
substantially during the last 30 years. The report analyzed 
air-monitoring data collected in Ohio between 1972 and 2001 for 
six pollutants for which national air-quality standards have 
been established. During a period when the use of coal to 
generate electricity has tripled nationally, the levels of six 
major air pollutants regulated by the Clean Air Act declined 
dramatically in Ohio.
    One major reason for our improved air quality is the 
development and deployment of clean coal technologies--an area 
where Ohio has established itself as a national leader. These 
technologies are being developed and refined at places like 
Ohio University and they are in use at several coal plants 
across the state.
    America's electric utilities have invested more than $50 
billion in clean-coal technologies, and millions of dollars of 
state and Federal monies have been leveraged to maximize the 
benefits of clean-coal technologies. With additional 
investments in clean coal technologies by both the public and 
private sector, we can reasonably look forward to a future 
where coal can continue to provide economic benefits as a low-
cost source of energy and our air quality can continue to 
improve through enhanced environmental efficiencies.
    Again, thank you for the opportunity to testify here today.
    [The prepared statement of Mr. Ungurean follows:]

  Statement of Charles C. Ungurean, President, Ohio Coal Association, 
                President and CEO, Oxford Mining Company

    Good morning. My name is Charles Ungurean. Chairman Pombo, 
Congressman Ney--I thank you for the opportunity to be here today to 
testify before the Committee on Resources.
    I am President and CEO of Oxford Mining Company, the largest 
producer of surface mined coal in Ohio. In 2002, our sales exceeded 3.1 
million tons and we expect that production will reach 3.5 million tons 
by the end of 2003. About 80 percent of this coal goes to American 
Electric Power generating stations in Ohio.
    Oxford currently employs more than 300 employees. We have nine 
operations strategically located in seven counties producing coal from 
six different coal seams. We have taken advantage of changes in the 
Ohio coal market to dramatically increase production. Between 1996 and 
2003, production rose from 500,000 tons to 3.5 million annually, 
resulting in a market share jump from 2 to 16 percent. With our current 
coal reserves, we can maintain these production rates for the next 25 
years, as long as Ohio utilities continue to burn Ohio coal.
    I also serve as chairman of the Ohio Coal Association. The Ohio 
Coal Association represents producers, brokers and other related 
industry members with the aim of advancing the development and 
utilization of Ohio coal as an abundant and environmentally sound 
energy source. The association exists in large part because we employ 
more than 2,600 Ohioans, and because Ohio coal producers know there is 
a 400-year reserve of affordable and increasingly clean Ohio coal 
waiting to be used to generate electricity.
    Our association commissioned a study in late 2002 of the economic 
benefits of Ohio's coal industry to the state. The study found that 
Ohio's coal industry provided a total economic benefit of three billion 
dollars to the state. More than 450 million dollars of that is in 
direct benefits, such as payroll taxes and salaries.
    Despite the significant benefits of coal for Ohio--and for our 
nation--there are proposals that threaten to negatively impact our 
industry and jeopardize the high-wage coal industry jobs that are of 
paramount importance in Appalachian Ohio. One of those proposals is the 
Kyoto Protocol, also known as the United Nations Treaty on Global 
Climate Change.
    Implementation of the Kyoto Protocol would devastate the coal-based 
electricity industry in Ohio and the nation. In 1998, the U.S. Energy 
Information Agency, which is the U.S. Department of Energy's 
forecasting arm, found that coal would fuel less than 10 percent of all 
electricity generation in the U.S. under the greenhouse gas reductions 
called for by the Kyoto Treaty. That would mean about an 80 percent 
reduction in coal's electric-generation market share. The resulting 
impact on Ohio's coal industry would be crippling--mine closings, job 
loss and severe economic fallout.
    President Bush made the right decision to reject the Kyoto Protocol 
in March 2001, refocusing the debate instead on policy based on 
technological innovation and economic incentives. History shows us that 
this will result in greater emissions reductions with lower economic 
costs to U.S. consumers and businesses.
    Today, coal provides the fuel for nearly 90 percent of Ohio's 
electricity and is a major reason Ohioans enjoy affordable energy. On 
average, coal is available at about half the cost of other fossil 
fuels, and the state's abundant reserves can ensure that Ohioans will 
have a ready, reliable supply of affordable energy close at hand for 
generations to come. Coal plays an important role in keeping keep 
electric power costs competitive, which is critical to the survival of 
Ohio's strong manufacturing sector. Directly and indirectly, 
manufacturing provides more than half of all jobs in the state.
    While affordable energy is good news, coal's opponents continue to 
challenge the viability of coal as an energy resource due to air 
quality concerns. However, the data suggests that this is an extreme 
point of view.
    Ohio has made significant environmental progress since the Clean 
Air Act became law in the 1970s. The Ohio Environmental Protection 
Agency recently released its new 30-year air quality trend report and 
found that Ohio's air quality has improved substantially during the 
last 30 years. The report analyzed air-monitoring data collected in 
Ohio between 1972 and 2001 for six pollutants for which national air-
quality standards have been established. During a period when the use 
of coal to generate electricity tripled nationally, the levels of six 
major air pollutants regulated by the Clean Air Act declined 
dramatically in Ohio.
    One major reason for our improved air quality is the development 
and deployment of clean coal technologies--an area where Ohio has 
established itself as a national leader. These technologies are being 
developed and refined at places like Ohio University, and they are in 
use at several coal plants across the state.
    America's electric utilities have invested more than $50 billion in 
clean-coal technologies, and millions of dollars of state and Federal 
monies have been leveraged to maximize the benefits of clean-coal 
technologies. With additional investments in clean coal technologies by 
both the public and private sector, we can reasonably look forward to a 
future where coal can continue to provide economic benefits as a low-
cost source of energy--and our air quality can continue to improve 
through enhanced environmental efficiencies.
    Again, thank you for the opportunity to testify today. I will be 
pleased to answer any questions you have.
                                 ______
                                 
    The Chairman. Thank you. Mr. Erdos.

STATEMENT OF BABE ERDOS, INTERNATIONAL EXECUTIVE BOARD MEMBER, 
                UNITED MINE WORKERS OF AMERICA, 
                           DISTRICT 6

    Mr. Erdos. Mr. Chairman and Congressman Ney, before I begin 
my comments, I would like to thank you, Mr. Chairman, for 
bringing your Committee hearing here to eastern Ohio and in the 
heart of Ohio's coal country. I want to especially thank 
Congressman Ney for all the hard work and dedication that he 
has shown in representing Ohio's workers in trying to preserve 
the jobs of the workers and trying to preserve industry in our 
area.
    I am Babe Erdos, an International Union Executive Board 
Member of the United Mine Workers of America District 6. In 
District 6, we have jurisdiction in all of Ohio and the 
northern panhandle of West Virginia. Our union represents the 
organized coal miners in District 6 and throughout the nation. 
I personally have worked in the underground mines of eastern 
Ohio, I had 8 years underground and for the past 21 years, I 
have had the privilege of representing our members here in 
District 6.
    I address your Committee today as a member and 
representative of an energy producing union. As an energy 
producing union, we have a keen interest in any environmental 
issues that may impact upon our members. As you will see from 
the following figures, history has proven us to be right in our 
concerns.
    In 1970, the year the Clean Air Act was enacted, our union 
represented over 10,000 workers. By the mid-1970's, due to some 
contractual improvement with the coal operators, we actually 
grew and had over 16,000 working members here in District 6. In 
the early 1980's, District 6 had fallen to about 11,000 
members, mostly due to the restrictions of the Clean Air Act. 
By 1990, working membership had declined to about 4000. Today, 
it is less than half of the 1990 levels. As you can see, nearly 
90 percent of our members have lost their jobs in the coal 
fields since our peak of the 1970's. Although I do not have 
figures, we believe the non-organized sector of Ohio's coal 
fields suffered a similar decline in their employment. The 
northern panhandle of West Virginia also suffered a similar 
fate during this timeframe.
    Ohio's coal production has suffered greatly as well. In 
1970, Ohio produced over 55 million tons of coal. In the last 4 
years, Ohio's coal production has ranged between 20 and 25 
million tons. This is in a state that has tremendous amounts of 
coal reserves and a state that produces nearly 90 percent of 
its electricity from coal.
    With the uncertainty of future coal markets, it is 
difficult for mining companies and owners to make large 
investments in developing future operations. And I would say 
that Mr. Murray--many of our members are at his mine--has been 
one of the few operators that has been able to keep his head 
above water due to his own tenacity in conducting his business, 
and we appreciate that. But what happens to the other remaining 
coal miners? What will happen to their families and communities 
if our nation's policies were to dictate that the product they 
produce is no longer acceptable to generate electricity? Coal 
mining is a unique industry and profession. To many, it is more 
of a culture than a profession. More often than not, mining is 
located in the rural areas of our country. It is no different 
in Ohio. There is little hope of acquiring another good paying 
job with any benefits in these small rural communities. In 
rural Ohio, many of these communities are based on one 
industry. When coal mining, steel or other basic manufacturing 
jobs are gone, it is difficult for these communities to 
survive.
    We all know that the workforce in Ohio's coal industry is 
also growing older. Most of our coal miner members are third 
and fourth generation miners. What happens to all of these 
retirees who depend on coal production for their health care 
coverage? Our union's health care funds spent over $25 million 
in Ohio alone in 1995. That is the last year I had the figures. 
And this does not reflect the costs of health care provided by 
the employers, like these gentlemen to my right.
    I have seen a study estimating a worse case scenario of 
between 58,000 and 86,000 jobs lost in Ohio if the Kyoto 
Protocol were implemented as it is proposed. Most of these jobs 
will be lost in the manufacturing sector. It is estimated 
another 38 percent of Ohio's coal jobs would be lost. As 
Congressman Ney stated in his opening remarks, with over 3500 
individuals working in the coal industry in Ohio today, another 
more than 1200 would be losing their jobs. We in the UMWA 
believe because of the uniqueness of the coal industry and the 
rural settings of our miles and communities, the burdens of 
Kyoto would fall unevenly on our region and on our industry.
    Ohio is recognized as having one of the best Clean Coal 
Technology programs in the country. In District 6, we believe 
that environmental regulations and restrictions should be 
achieved through the implementation of clean coal technologies. 
This would protect jobs and protect rural communities.
    Thank you.
    [The prepared statement of Mr. Erdos follows:]

    Statement of Babe Erdos, International Executive Board Member, 
              United Mine Workers of America--District Six

    Mister Chairman and members of the Committee:
    I am Babe Erdos, an International Union Executive Board Member of 
the United Mine Workers of America (UMWA) District Six. District Six 
has jurisdiction in all of Ohio and the northern panhandle of West 
Virginia. Our union represents the organized coal-miners in District 
Six and throughout our nation. I have worked in the underground coal 
mines of eastern Ohio and for the past twenty one years, I have had the 
privilege of representing our members here in District Six.
    Mr. Chairman before I begin my comments I want to thank you for 
bringing your Committee hearing to eastern Ohio and the heart of Ohio's 
coal country. I want to especially thank Congressman Ney and 
Congressman Strickland for their dedication and hard work in 
representing Ohio's workers and industry.
    I address your Committee today as a member and representative of an 
energy producing union. As an energy producing union, we have a keen 
interest in any environmental issues that may impact our members. As 
you will see from the following figures, history has proven us right in 
our concerns.
    In 1970, the year the ``Clean Air Act'' was enacted, our union 
represented over ten thousand (10000) workers. In the mid 1970's, we 
had over sixteen thousand (16000) working members. In the early 1980's, 
District Six still had about eleven thousand (11000) members working. 
By the year 1990, working membership had declined to about four 
thousand (4000). Today it is less than half of the 1990 levels. As you 
can see, nearly ninety-percent (90%) of our members have lost their 
jobs in the coal-fields since our peak of the 1970's level. Although I 
do not have figures, the non-organized sector of Ohio's coal-fields 
suffered a similar decline in employment.
    The northern panhandle of West Virginia has suffered a similar fate 
during this same time frame.
    Ohio's coal production has suffered greatly as well. In 1970, Ohio 
produced over fifty five million (55,000,000) tons of coal. In the last 
four years, Ohio's coal production has ranged between twenty and twenty 
five million (25,000,000) tons. This is in a state that has tremendous 
amounts of coal reserves and a state that produces nearly ninety 
percent (90%) of its electricity from coal.
    With the uncertainty of future coal markets, it is difficult for 
mining companies and owners to make large investments in developing 
future operations. So what happens to our remaining coal miners? What 
will happen to their families and communities if our nation's policies 
were to dictate that the product they produce is no longer acceptable 
to generate electricity? Coal mining is a unique industry and 
profession. To many, it is more of a culture than a profession. More 
often than not, mining is located in rural areas of our country. It is 
no different in Ohio. There is usually little hope of acquiring another 
good paying job with any benefits in these small rural communities. In 
rural Ohio, many of these communities are based on ``one industry''. 
When coal mining, steel or other basic manufacturing jobs are gone, it 
is difficult for these communities to survive.
    We all know the workforce in Ohio's coal industry is growing older. 
Most of us are third and fourth generation coal miners. What happens to 
all the retirees who depend on coal production for their health care 
coverage? Our union's health care funds spent over twenty five million 
dollars ($25,000,000) in Ohio alone in 1995. This doesn't reflect costs 
of health care provided by employers.
    I have seen a study estimating a worst case scenario of between 
58,000 and 86,000 jobs lost in Ohio if the Kyoto Protocol were 
implemented as it is proposed. Most of these jobs would be lost in the 
manufacturing sector. It was estimated another thirty eight percent 
(38%) of Ohio's coal jobs would be lost. We in the UMWA believe because 
of the uniqueness of the coal industry and the rural settings of our 
mines and communities the burdens of Kyoto would fall unevenly on our 
region and industries.
    Ohio is recognized as having one of the best Clean Coal Technology 
Programs in the country. In District Six, we believe environmental 
restrictions should be achieved through the implementation of clean 
coal technologies. This would preserve jobs and protect rural 
communities.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you. Mr. Kosowski.

     STATEMENT OF JAMES A. KOSOWSKI, DIRECTOR OF CORPORATE 
        COMMUNICATIONS, WHEELING-PITTSBURGH STEEL CORP.

    Mr. Kosowski. Thank you, Chairman Pombo and Congressman 
Ney, it is a privilege to be here today and to represent the 
business community and the manufacturing community, to talk 
about the effects that the Kyoto Agreement would have on the 
businesses downstream of the coal industry.
    As a representative of the business community, I can tell 
you that there is clear evidence that the Kyoto Agreement, if 
it is ever ratified and put into place in the United States, 
would have huge costs to the United States economy and would 
devastate the economy of the Ohio Valley. The Kyoto Agreement 
would act as a smart bomb designed to eliminate manufacturing 
in the United States while leaving behind unemployed workers.
    The Ohio Valley not only produces coal, the Ohio Valley 
burns coal to produce electricity and the Ohio Valley uses coal 
to produce coke for the steel industry and it uses massive 
amounts of electricity to make steel. Wheeling-Pittsburgh 
Steel, for example, uses more than a million and a half tons of 
coal a year to produce coke for its steel-making operations.
    Increases in the cost of coal and the cost of electricity, 
would have to be added to the cost of steel. The prices we pay 
for cars, for food, for clothing produced in the United States 
would all go up. The Energy Information Agency forecasts a loss 
to the U.S. Gross Domestic Product at over $300 billion per 
year because of any mandated emission cuts stemming from the 
Kyoto Agreement. We are talking about a $300 billion tax 
increase to U.S. consumers.
    But those increases would not be equal throughout the 
world. Jobs that would be eliminated in the United States would 
pop up overseas in countries like China, India and Mexico, 
which are exempt from making reductions in emissions.
    Wheeling-Pittsburgh Steel is already spending more than $50 
million every year to operate and maintain its pollution 
control equipment, something that the steel industries in 
developing countries like China and India do not do.
    Should the United States regulate pollution emissions and 
enforce those laws? Absolutely. Because pollution control is 
demonstrated to have clear benefits to people's health and the 
country's economy.
    Should the United States agree to the Kyoto Agreement or 
anything that would limit energy use in the United States while 
exempting competing countries like China, India and Mexico? 
Absolutely not. In fact, many people contend that the Kyoto 
Agreement is not about the environment, it is about the 
economy. It is about increasing the cost of manufacturing and 
business in the United States, the world's most dynamic 
economy, the world's largest economy and the world's most 
efficient user of energy for manufacturing and business.
    Wheeling-Pittsburgh Steel and its 3800 employees have 
worked hard to reduce costs and increase the efficiency with 
which they make steel. They have sacrificed through pay 
reductions and the loss of jobs in order to increase their 
competitiveness in the world market. It would be a serious 
injustice to throw away those sacrifices to satisfy a global 
agreement that clearly benefits this country's competitors at 
the expense of the United States and its workers. I do not 
believe there is any way that the U.S. steel industry could 
compete in the world against countries that do not have to 
conform to the Kyoto Agreement.
    But it is not just Americans who oppose the Kyoto Agreement 
who are saying that this is an economic issue. To quote Margot 
Wallstrom, the European Union's Commissioner for the 
Environment, global warming ``is not a simple environmental 
issue where you can say it is an issue where scientists are not 
unanimous. This is about international relations, this is about 
the economy, about trying to create a level playing field for 
big businesses throughout the world. You have to understand 
what is at stake and that is why it is serious.''
    I would like to say that we understand what is at stake. 
What is at stake is Ohio Valley jobs, Ohio Valley 
manufacturing, mining and energy businesses and our very 
standard of living.
    Thank you.
    [The prepared statement of Mr. Kosowski follows:]

 Statement of James A. Kosowski, Director of Corporate Communications, 
     Wheeling-Pittsburgh Steel Corporation, Wheeling, West Virginia

Kyoto Agreement Would Devastate the Ohio Valley
    As most everyone knows, the Kyoto Agreement is designed to reduce 
carbon dioxide emissions, thereby reducing so-called ``Greenhouse 
Gases.'' The Kyoto Agreement says this is necessary to reverse a trend 
of global warming that Kyoto Agreement backers say will have a 
devastating impact on the world's environment. These conclusions are 
drawn from computer models in which scientists input certain 
assumptions and the computer generates conclusions.
    The global warming conclusions, however, are by no means unanimous. 
Scientists from major universities and study groups have come to 
different conclusions about whether global warming is an actual trend. 
Still others have convincingly pointed out that flaws in the 
assumptions of the computer models make the conclusions about global 
warming suspect.
    I am not a scientist. All I know about the scientific discussions 
regarding Greenhouse Gases is that there is disagreement among the 
scientific community.
    As a representative of the business community, I can tell you that 
there is clear evidence that the Kyoto Agreement, if it is ever 
ratified and put into place in the United States, would have huge costs 
to the United States economy and would devastate the economy of the 
Ohio Valley. The Kyoto Agreement would act as a ``smart bomb'' designed 
to eliminate manufacturing in the United States, while leaving behind 
unemployed workers.
    Here is what the this agreement would do. The Kyoto Agreement would 
reduce ``Greenhouse Emissions to a level that is 7 percent below their 
1990 levels by 2012. Because the United States has experience 
significant economic growth during much of that time that means 
emissions would need to be reduced by 30%. The only way to reduce those 
emissions by 30 percent is to reduce energy use. How much would 30 
percent equal? That would be equivalent to the TOTAL amount of energy 
used for transportation in 1996. So reducing energy use to meet the 
accord would be tantamount to permanently stopping all highway, rail, 
water and air traffic.
    The Ohio Valley produces coal. The Ohio Valley burns coal to 
produce electricity. The Ohio Valley burns coal and uses electricity to 
make steel. Increases in the costs of coal and the cost of electricity 
would have to be added to the cost of steel. The prices we pay for 
cars, for food, for clothing produced in the United States would all go 
up. The Energy Information Agency forecasts a loss of U.S. Gross 
Domestic Product of roughly $300 billion per year because of any 
mandated emission cuts stemming from the Kyoto Agreement. We are 
talking about a $300 billion tax increase on U.S. consumers.
    But these increases would not be equal throughout the world. Jobs 
that would be eliminated in the United States would pop up overseas in 
countries like China, India and Mexico--which are exempt from making 
reductions in emissions.
    Wheeling-Pittsburgh Steel is already spending more than $50 million 
every year to operate and maintain its pollution control equipment--
something that the steel industries in developing countries like China 
and India do not do.
    Should the United States regulate pollution emissions and enforce 
those laws? Absolutely! Because pollution control is demonstrated to 
have clear benefits to people's health and the country's economy.
    Should the United States agree to the Kyoto Agreement or anything 
that would limit energy use in the United States while exempting 
competing countries like China, India and Mexico? Absolutely not?
    In fact, many people contend that the Kyoto Agreement is not about 
the environment it is about the economy. It is about increasing the 
costs of manufacturing and business in the United States--the worlds 
most dynamic economy; the worlds largest economy; and the world's most 
efficient user of energy for manufacturing and business.
    Wheeling-Pittsburgh Steel and its 3,800 employees have worked hard 
to reduce costs and increase the efficiency with which they make steel. 
They have sacrificed through pay reductions and the loss of jobs in 
order to increase their competitiveness in the world market. It would 
be a serious injustice to throw away those sacrifices to satisfy an 
global agreement that clearly benefits this country's competitors at 
the expense of the United States and its workers.
    And it is not just American's who oppose the Kyoto Agreement who 
are saying this. To quote Margot Wallstrom, the European Union's 
commissioner for the environment: global warming ``is not a simple 
environmental issue where you can say it is an issue where scientists 
are not unanimous. This is about international relations, this is about 
economy, about trying to create a level playing field for big 
businesses throughout the world. You have to understand what is at 
stake and that is why it is serious.''
    We understand what is at stake. What is at stake is Ohio Valley 
jobs,. Ohio Valley manufacturing, mining and energy businesses and our 
very standard of living.
                                 ______
                                 
    The Chairman. Thank you.
    You know, when the Kyoto Treaty was reached, I happened to 
be in Australia on an Agriculture Committee trade trip. And 
obviously we were--the Members of Congress that were on that 
trip, were paying close attention to what was going on and had 
some real concerns about it. I remember Al Gore flew in and 
supposedly nailed down the deal.
    The next day, the papers in Australia, headline above the 
fold was trumpeting the agreement and how great it was going to 
be for their economy that this was going in. And if you go back 
and read those articles, nowhere in there did they talk about 
the environment. They talked about what a benefit it would be 
to their economy for this agreement to go into place. And 
throughout the time that we were there, we were meeting with 
all of their trade officials and they were absolutely giddy 
with joy at the U.S. supposedly agreeing to this treaty and the 
impact that it would have on them.
    All of you have impacts from foreign competition in one way 
or another, and that is the reality of the world that we live 
in today. But I really do believe that by playing on a level 
playing field, we can compete and agreements like the Kyoto 
Treaty--and I agree with you--are more about the economy and 
more about creating an unlevel playing field than they are 
anything else.
    We also have a somewhat different problem and that is that 
when you are dealing with environmental issues, that is 
something that we all care deeply about. None of us wants dirty 
air, dirty water, none of us want species to become extinct, 
and that is something that is a basic value that Americans hold 
close. It is something we all care about, so it is also 
something that it is easy to deceive people on.
    I believe that agreements such as the Kyoto Treaty present 
a false choice and that false choice is a clean environment or 
a healthy economy. I do not believe we have to make that 
choice. I believe that we can have a clean environment, that it 
is possible to have a healthy, growing, vibrant economy in a 
place like the Ohio Valley and have a clean environment. You 
gentlemen talked about what you have done over the years to 
improve clean coal technology and how much you have spent and 
how fast we have improved on that. But there are those that we 
have to deal with all the time that want to make the argument 
that you cannot do that, that the only way to have a clean 
environment is to shut down our industry.
    I would like to ask Mr. Ungurean, to start with, when we 
are dealing with that competition, that foreign competition 
that is coming in and the impact it is having, are you at all 
familiar with the environmental regulations, health and safety 
regulations that your foreign competitors have and how that 
compares to what we are doing here?
    Mr. Ungurean. Just from what I read, you know, China is a 
very good example. Basically they have practically no 
environmental or safety standards for their coal mining 
industry. I think it is widely reported that just reported 
deaths in mining in China is over 25,000 a year.
    The Chairman. Wait a minute, back up. The reported deaths 
are 25,000 a year?
    Mr. Ungurean. Yes.
    The Chairman. Wow.
    Mr. Ungurean. And, you know, they have little or no 
regulations, both on safety and the environment. As was noted 
by Mr. Murray, they--or someone here--they burn more coal than 
we do. And for them to be exempt is just beyond my imagination 
how that could happen.
    The Chairman. Well--and I would like to give Mr. Grisham 
and Mr. Murray a chance to answer that as well, but you know, 
in the amount of time that I have been in the House, I have had 
the opportunity to travel to a few of these different places 
and look at what they are doing. And just in my experience, 
most of these businesses would be shut down if they existed 
here.
    Mr. Grisham.
    Mr. Grisham. Last week in the Wall Street Journal, there 
was an article by John Fialco, no great friend of industry, who 
was commenting basically on the phenomenon of a particulate 
cloud which had been identified off the shore of Asia. And the 
furor that came out of that was that this was--this particular 
cloud had something to do with perhaps some global climate 
trends and more than say CO2 accumulation or gas. It was an 
interesting article because those who felt that the issue of 
CO2 is critically important in propelling their particular 
environmental arguments did not like to hear this other 
opinion.
    I would just like to say that I know that we all know that 
pollution is a huge problem in the developing world, as is 
poverty, and many of us believe that electrification is 
critical to the elimination of poverty, which is the worst 
enemy of the environment. And that what we should be doing is 
developing the technologies in this country and maintaining the 
economic strength to assist the rest of the world in this 
evolutionary process. Their populations are not going to 
diminish over the next 50 years, in fact they are going to grow 
and they are having a difficult time coping now.
    I happened to have specialized in international studies as 
an undergraduate in Latin America, and I believe that the Latin 
Americans in particular need a great deal of help from North 
America, the United States in particular, in moving their 
economies forward. And I do not believe that chopping away at 
the strength of our own economy is going to do them any good at 
all. Thank you.
    The Chairman. Mr. Murray.
    Mr. Murray. As you very well said, Mr. Chairman, this is 
all about trying to maintain a level playing field in the 
global marketplace for the products of the United States of 
America and for the jobs of the people in our country.
    I have been in the Chinese mines, I know that there is no 
safety in those mines. I was a guest invited by the Ministry of 
Mines of the People's Republic when it was Communist, to go 
over and help them modernize their industry. And I would not 
know where to start because the rules under which they operate, 
both environmentally and safety-wise are so different--there is 
no value on human life there.
    Right now, our greatest threat is coal from Colombia and 
Venezuela. I mentioned that in my remarks. They have no 
reclamation requirements there--modest reclamation 
requirements. And again, safety is not an issue. It is 
devastating our coal industry in that this coal is now coming 
into this country. So we are not playing on a level playing 
field.
    The Kyoto Protocol is not an environmental issue, to me it 
is a human issue, as I said, but it is really, as you said, 
sir, an economic issue. It is an issue where they would like to 
see the United States wounded in our ability to produce 
products competitively and see our electric rates go up.
    The reason the Europeans, who are pushing this, want this 
is because they have already done away with their coal industry 
and replaced it with nuclear power, so basically under to Kyoto 
Protocol of the United Nations, they do not have to do anything 
and that has not been brought out here, but I know you know. 
Under the Kyoto Protocol, they do nothing--the Brazilians, the 
Chinese, the Indians and all the other developing countries 
that burn most of the coal in the world are exempted.
    So it is a target with the United States of America and the 
jobs of eastern Ohio in the cross hairs. That is what the Kyoto 
agreement is all about. You said it, sir, you know it very 
well. Thank you.
    The Chairman. Mr. Erdos, obviously in an area such as this 
where unenployment has historically been high, with the 
downturn in the economy, it gets that much worse. With an 
industry like coal under attack, that has a serious impact on 
you and the people that you represent. One of the things the 
previous administration talked about, and I dealt with it out 
in my area with timber workers and hard rock mining, was the 
Administration at that time said we will replace these jobs 
with other jobs and we will retrain the workers.
    How successful has that been with your membership so far, 
with retraining the workers and getting them into other 
industries?
    Mr. Erdos. Yes, Mr. Chairman. There are several programs 
for dislocated workers. In fact, the United Mine Workers has a 
program of their own called the UMWA Career Center, which has 
actually had some success. I think the problem is, as I 
mentioned in my remarks, that most coal miners are third and 
fourth generation. I mean it is part of their culture, it is 
part of their history. That is the job they wanted to join.
    The other thing is in most of these rural areas, a lot of 
times once they take the retraining, they have got to move away 
because there is just limited amounts of job opportunities in 
that field. So they have just got to move away.
    As you know, getting back, Mr. Chairman, to the Kyoto 
Treaty, I once heard our international president make a remark, 
which I think was appropriate and along the lines you said, 
this treaty certainly is, as the other gentlemen have said, is 
not an environmental treaty. Our international president made 
the comment, if you and I were neighbors and had a creek 
running between us and I dumped battery acid in that creek for 
5 years, now we say we want to clean it up but I say hey, I 
dumped it in there 5 years, so in order for you to catch up, we 
are going to let you dump battery acid in that creek for 5 
years. Now what does that do for the environment? And that is a 
little bit what this is about. We do not want to allow these 
other Third World countries or whomever to pollute the 
atmosphere. It is going to do very little for the environment. 
I think President Bush is right on that.
    The Chairman. I think that analogy is pretty accurate and I 
am going to give Mr. Kosowski a chance to respond to that, 
because the jobs that we lose here, the industry that we lose 
here, is going to be replaced somewhere else. The steel that is 
not produced here will be produced. It just will not be 
produced here. The coal that is not mined here will still be 
mined. It will just be mined somewhere else.
    And when we are talking about foreign competition, right 
now--so far, everything you gentlemen are talking about--the 
health, safety, environment--those are all regulations that 
exist right now. What the Kyoto Treaty tells you is that we are 
not just going to make it more expensive for you to mine your 
product or produce your product. What the Kyoto Treaty tells 
you is we are going to make it so you cannot use your product. 
So it goes beyond just the cost of production. It says you are 
not using it any more.
    Mr. Kosowski.
    Mr. Kosowski. I think you are absolutely right. The steel 
industry has been fighting for the last five or 6 years dealing 
with illegally dumped steel imports into this country. As that 
process has been going on, the steel industry has been 
responding by reducing its costs, by improving its 
efficiencies. We probably make--we make definitely more steel 
today than we ever have as a company and we do it with probably 
half as many employees as we had 12 or 13 years ago. So we have 
made very difficult decisions and taken very difficult actions 
to improve our efficiency. But there is no way that the steel 
industry could continue to operate when the electricity costs 
go up by significant amounts in the United States and do not 
budge in developing countries. And we have found that 
developing countries like the steel industry not only for what 
it does to their own country, provides a lot of employment, it 
provides the infrastructure that we know develops around a 
steel mill. But they do it because they can export their steel 
products to the United States. We do not produce all the steel 
that we need in this country.
    And when you put a handicap on the steel industry of 
significantly higher electricity costs, significantly higher 
coal costs because of producing coke, it would just have--it 
would be an insurmountable of handicap on this industry. And I 
do not believe that when the steel industry disappears in the 
United States, that you are going to be able to find cheap 
foreign alternatives.
    The Chairman. Thank you. Mr. Ney.
    Mr. Ney. Thank you, Mr. Chairman.
    A generic question I would have for anyone to answer, 
besides obviously defeating the Kyoto Treaty, which we need to 
do or we are not going to be in existence, what else can we do 
at the Federal level since coal is at the lowest demand in 
years. Besides defeating Kyoto, which is the purpose of getting 
people on the record and doing what people are doing across the 
country, what we are doing today, giving testimony, what else 
could we do?
    Mr. Murray. Mr. Chairman, you have got a good start on H.R. 
4 that you have passed out of the House over to the Senate. We 
need to give electric utilities in the United States incentives 
to install clean coal technologies. Coal can be burned cleanly 
and coal-fired electricity is less than half the cost of 
natural gas-fired electricity, and we can burn coal as cleanly 
as natural gas. We need to add the clean coal incentives, both 
the production tax credits and the incentive tax credits in the 
Senate, in the conference of the bill that you have with the 
Senate now. That is one thing we need to do.
    The President's Clear Skies Initiative is another. This 
will provide certainty for electric utilities as to what the 
rules are in America. It has been a moving target under the 
past administration. While the Clear Skies Initiative provides 
for more severe cuts in sulfur dioxide, nitrous oxides, mercury 
emissions, it will provide certainty and it will also be an 
incentive for clean coal technology.
    Right now, we have a national energy policy of putting coal 
that is 20 percent water out of Wyoming and Montana, hauling it 
clear across the United States 3400 miles in locomotives 
burning Arab oil and then those trains go back to Wyoming and 
Montana, all the way from Ohio empty. That is our national 
energy policy.
    What we need is the Clear Skies Initiative combined with 
the incentives to install clean coal technology and then the 
domestic coal industry here in eastern Ohio and the panhandle 
of West Virginia, and western Pennsylvania, will come back. We 
will not be spending all of this money for coal transportation 
and for Arab oil to fuel those locomotives. We will burn the 
local product and we will create jobs here in the tri-state 
area.
    So the combination of H.R. 4 plus incentives, both 
production incentives and tax credit type incentives, plus the 
Clear Skies Initiative, which will provide certainty as to what 
the rules are for SO2, NOx and mercury. The combination of 
those two things, I think will result in a revitalization of 
the coal industry in this part of the country, where we could 
actually create the jobs here. And the people in this area are 
paying the electric bills. They should get the jobs here too 
for the electric bills they pay, rather than exporting those 
jobs to Wyoming, Montana, Colombia, Venezuela, China and so 
forth. Thank you.
    Mr. Ney. Mr. Chairman, another question on that that I 
have, if anybody would like to answer, in the western states, 
there are a lot of plants located in the mouth of the mine. Why 
do we not do that back east as much?
    Mr. Murray. I was involved in a number of those projects, 
perhaps someone else should answer it, but in North Dakota and 
Texas. I built a number of mines at power plants. Actually that 
is the way to go, in my opinion, for future power generation.
    We were working with four electric utility companies, I 
cannot say where, to accomplish just that a year and a half 
ago. But then all this natural gas-fired generation--you have 
got to remember, during the Clinton/Gore years, they made it 
very difficult for coal, they wanted to ``dial out coal'' in 
their words. All the incentives went to natural gas.
    So 150,000 megawatts of natural gas generation was built in 
the United States. These plants are under warranty and they 
have to run them, whether they are competitive with coal or 
not, which they are not. The electric utilities are just 
passing it on to their ratepayers to pay for the more expensive 
electricity from natural gas than coal.
    I think, Congressman Ney, you are going to see exactly what 
you are talking about come back, because what you need for a 
mine mouth plant are the following: coal--it is here; a place 
to dispose of the waste from the plant--it can go right where 
the mine wastes go, same place. We have unlimited supplies of 
water in the Ohio River and there are large power lines in this 
area, 765 kV power lines. So we have all the ingredients for a 
mine mouth plant, and that would be the greatest boom to 
eastern Ohio, and Congressman, if you can get that done, I 
think you will be doing one of the greatest things for this 
district that anybody has ever done. There should be mine mouth 
power plants built right here.
    Mr. Erdos. If I might, Congressman--and I do not disagree 
with what Mr. Murray said, but I guess in Ohio, the closest 
thing we had to that was in Meigs County and I think--and I am 
glad to hear Mr. Murray say that he has been somewhat involved 
or has been involved, because I think there would have to be 
some restrictions because I think one of the things we got into 
there was a lot of high cost coal, selling the coal to yourself 
made it very difficult for many of the coal producers in the 
State of Ohio to get into that market.
    So I do not disagree with it, I think that is a great idea, 
but I think how it is set up and what-not needs to be looked 
into.
    Mr. Ney. If I could interject here, we did a bill years ago 
trying to save that, specifically.
    One other thing I wanted to just comment on while we are on 
the issue of, you know, scrubbers and mines. Years ago, I 
believe that--just take the Samas Power Plant, for example, 
that used to be Ohio Edison, and they were asked what they had 
to do, and if you have ever driven up there toward Toronto, 
East Liverpool, up above there, there is a bridge that is 
actually an environmental device. They were told you would have 
to do A, B, C and D and it was going to cost like $200 million. 
They did that. Things changed at EPA because a new bureaucrat 
came in and they said well that is not good enough now. Now you 
have to do E, F, G and H. They spend another $250 million, if I 
remember my figures right--$450 million years ago went into 
that.
    Now I think if the sound science had been used years ago 
and we all knew that this is what you did to build a scrubber 
or this is what--you know, bring everybody on board, I think it 
probably would have been invested in. So many people have been 
taught a lesson over the years, no matter what you do, when you 
deal with the U.S. EPA in particular, you go to do something 
and you ask them what do I have to do, they will tell you what 
you have to do and then they will change the whole ballgame 
within a year. It becomes almost impossible to set a course to 
do things.
    So I think years ago, if we could have gotten that 
straightened out probably we would have had more ability.
    Also one thing I wanted to comment on was the fact of the 
dislocated workers. I know Larry, we have worked with the State 
and union and companies in support of that for a long time. And 
we did it in order to bring people to the point that they could 
at least feed their families. Which you are right, a lot of 
people had to leave here. That would be my question too, what 
the opportunities are around here for that people. And some 
people were able to come back. For example, we got some jobs 
that were a little better paying. But still had to work on 
those and trade readjustment, something always to work on. 
Every time you all call, we have to respond to that, the 
companies call, the unions call. And worker deserve that, to 
get that help.
    I just wanted to make it clear, I see these bills over a 
period of years that will come out of Ohio and mainly 
Washington that say do not worry, when you vote for the WTO, we 
will give you trade readjustment. Well, that is just telling 
you that you are not going to have a job. Yes, you have to have 
it; we always will help with the workers when you call us, but 
people want a job versus being told well--it is a roundabout 
way to take care of you on the unemployment line.
    The Chairman. Thank you. I want to thank the panel for your 
testimony and for answering all the questions. I am going to 
dismiss this panel but thank you very much.
    I would like to call up our second panel--Mr. Richard 
Homrighausen, Mr. Gary Obloy, Mr. Eugene Trisko and Dr. John 
Christy.
    Thank you very much. If you will raise your right hand.
    [Witnesses sworn.]
    The Chairman. Thank you. Let the record show they all 
answered in the affirmative. I welcome you to your hearing 
today. It is a pleasure to have you all. And Mr. Mayor, we are 
going to begin with you.

STATEMENT OF THE HONORABLE RICHARD HOMRIGHAUSEN, MAYOR, DOVER, 
                              OHIO

    Mayor Homrighausen. Thank you. Good morning, Chairman 
Pombo, Congressman Ney. My name is Richard P. Homrighausen and 
I am the Mayor of the city of Dover, Ohio.
    The Chairman. Could you pull the mike just a little closer 
to you?
    Mayor Homrighausen. As mayor from a small industrial 
community located approximately 60 miles to the northwest of 
our hearing site, I am honored to have the opportunity to 
testify before you today.
    As a small town mayor, the local municipal utility operator 
of a small coal-fired power plant, one of six municipal 
utilities that still generate a portion of our own electricity, 
an active participant in electric generation projects, both 
fossil--we are currently exploring the possibility of doing a 
750 megawatt power plant, and mine mouth is also part of that 
exploration process, to our wholesale power supplier AMP-Ohio--
and we are also using renewable energy in the form of landfill 
gas projects, also through AMP-Ohio, and as the President of 
the Municipal Electric Association of Ohio. I know both the 
value that citizens have received from the passage of the Clean 
Air Act and its amendments as well as the hardships imposed by 
inflexible regulation. Although the discussion of the Clean Air 
Act does not fall under the jurisdiction of this Committee, I 
see far too many similarities between the Clean Air Act and the 
Kyoto Global Warming Treaty, which is the topic of today's 
hearing. Because of these similarities, and the drastic effect 
the enactment of this treaty would have on the industrial 
Midwest, I sincerely appreciate this opportunity to provide our 
perspective at this time.
    Under the Clean Air Act, tremendous improvement has been 
made in air quality. As a local official, I must emphasize that 
these accomplishments were realized largely through the efforts 
of state and local governments through innovative development 
and implementation of the State Implementation Plan program. 
However, in the middle of the game, not only were the rules 
changed, but the EPA took its ball and moved the field of play 
to another stadium. Its proposals on the enactment of new ozone 
and PM2.5 standards were not, and are not, based upon sound 
science. The lack of sound science in the regulation of these 
aspects of the Clean Air Act mirrors the flawed scientific 
premises underpinning the Kyoto Protocol.
    If we as a nation are to safeguard the future of our world 
and the environment we live in, steps must be taken to ensure 
we are heading in the right direction. It is imperative that 
all decisions regarding the enactment of standards to regulate 
air--specifically tropospheric ozone, particulate matter, 
carbon monoxide and dioxide, methane, nitrogen oxides, mercury, 
sulfur dioxides and chlorofluorocarbons--be based on sound 
science. Federal laws and regulations that are not based upon 
sound science may do little or nothing to stabilize the 
atmosphere, but could have drastic impacts on our economy.
    Based on what I have read and understand, I am concerned 
that if the United States were to ratify the Kyoto Protocol, 
the resultant negative economic impacts associated with our 
compliance would ripple across the Nation in the form of 
increased electric rates, increased prices for consumer goods 
and services, and lost jobs. I find this even more alarming 
since Kyoto Protocol may not result in less greenhouse gas 
emissions worldwide. What will be gained if all of the so-
called industrialized nations are mandated to reduce their 
greenhouse gases by 30 percent, while at the same time some 130 
developing nations are given exemptions? A prime example is 
Mexico. Under the Kyoto Protocol, Mexico is exempted. How soon 
we forget the mass exodus of U.S. industrial jobs to Mexico. 
Does anyone truly believe that these industrial processes and 
the jobs associated to them are being performed without 
emissions? And I do not remember Mexico in Iraq either.
    As previously mentioned, it is important to assess the 
potential impacts of the Kyoto Protocol in the U.S. in the 
context of the current Clean Air Act requirements. Such a 
review raises serious concerns.
    Costs are already increasing. We have seen electricity 
costs in the wholesale market rise in recent years. Although a 
portion of this increase is attributed to transmission costs, 
environmental compliance issues and fuel costs are also 
important factors. Many Ohio electric generating plants have 
attempted to mitigate the cost of meeting emission reduction 
requirements by switching to the use of out-of-state low sulfur 
coal. The move to low sulfur coal, which must be transported to 
Ohio facilities, has impacted our economy in two ways--
increased fuel costs and reduced demand for Ohio coal. I can 
only believe that the ratification of the Kyoto Protocol would 
exacerbate this situation. I might add that to date, the city 
of Dover has been able to maintain our burning of Ohio coal.
    Increased electricity rates impact customers. Customers 
bear the brunt of increased electric costs, both in the cost of 
power and in what they pay for consumer goods and services. For 
instance, water and sewer plants rely on electricity for their 
operation--therefore, increased electric costs would increase 
what consumers pay for their water and sewer. This is just one 
example of the trickle down impacts of increased energy costs.
    In addition to implementing sound scientific practices, 
Congress must implement an economic impact study to determine 
the projected cost of the implementation of the Kyoto Treaty.
    Natural gas is not a viable alternative. Over the past 
several years, the cost of natural gas has become increasingly 
volatile. A combination of factors, including colder-than-
normal winters, governmental restrictions on drilling and 
market manipulation by natural gas suppliers, the largest of 
which I do not believe is in business any more, resulted in the 
depleted gas reserves. As such, we have seen the cost of 
natural gas skyrocket at critical usage times, thereby limiting 
natural gas as a viable alternative to coal generation.
    Current Clean Air Act regulation and the Kyoto Protocol 
seriously threaten Ohio's economy. Affordable electricity 
generated in the State of Ohio is reliant upon the use of low-
cost high sulfur coal. New clean coal technology has and is 
being developed which will reduce the emissions from Ohio coal, 
and we look forward to the day that such technologies are 
commercially proven and affordable. Clearly the future 
viability of Ohio's coal resources is important to our state's 
economy. As such, we question what the outlook would be for 
Ohio's coal industry if the impact of the Kyoto Protocol were 
combined with the challenges already confronting the industry 
under current Clean Air Act regulations. Will an entire economy 
fade away and die? How many jobs will be lost over what has 
already been lost due to the closing of Ohio coal mines? How 
many more workers will move out of the state in an effort to 
support their families? How many industries will leave Ohio due 
to increased utility costs?
    Add to the previous four concerns the fact that the stock 
market has performed poorly for several years. That many of our 
senior citizens' retirement plans have deteriorated to the 
point of no return and some are even looking to re-enter the 
job market to provide for daily necessities. That Ohio's method 
of school funding has been ruled unconstitutional. That school 
levies are failing across the state and even the wealthiest 
school districts are experiencing budgetary shortfalls. That 
prescription drugs and basic health care costs are 
skyrocketing. The cost of consumer goods seem to rise on a 
daily basis. And that the Federal Government enacts unfunded 
mandates to be passed on to the states, which in turn passes 
them on to the local level.
    We cannot afford yet another level of government imposed 
increases, which will increase the American public's cost of 
living, which in turn will diminish our quality of life.
    I believe the ratification of the Kyoto Protocol would have 
a disastrous impact on the economy of my city, the state of 
Ohio and the entire country. I urge this Congress and the 
Administration to oppose all efforts toward ratification of the 
Kyoto Protocol or any legislation that seeks to implement the 
basic tenets of the Protocol, including mandatory caps on CO2 
emissions.
    Again, I want to thank you for this opportunity to voice my 
opinion and my concerns regarding the Kyoto Protocol, and I 
look forward to answering any questions you might have.
    Thank you.
    [The prepared statement of Mayor Homrighausen follows:]

      Statement of The Honorable Richard P. Homrighausen, Mayor, 
                          City of Dover, Ohio

    Good morning, Chairman Pombo, Congressman Ney and members of the 
Committee, my name is Richard P. Homrighausen, and I am the Mayor of 
the City of Dover, Ohio. As a mayor from a small industrial community 
located approximately 60 miles northwest of this hearing site. in the 
heart of the industrial Midwest, I am honored to have the opportunity 
to testify before you today.
    As a small-town mayor, the local municipal utility operator of a 
small coal-fired power plant, an active participant in electric 
generation projects, both fossil fuel and renewable energy in the form 
of a Landfill Gas Project, through AMP-Ohio, and as President of the 
Ohio Municipal Electric Association, I know both the value that 
citizens have received from the passage of the Clean Air Act and its 
amendments, as well as the hardships imposed by inflexible regulation. 
Although the discussion of the Clean Air Act does not fall under the 
jurisdiction of this Committee, I see far too many similarities between 
the Clean Air Act and the Kyoto Global Warming Treaty, which is the 
topic of today's hearing. Because of these similarities, and the 
drastic effect the enactment of this treaty would have on the 
industrial Midwest, I sincerely appreciate this opportunity to provide 
our perspective on this issue.
    Under the Clean Air Act, tremendous improvement has been made in 
air quality. As a local official, I must emphasize that these 
accomplishments were realized largely through the efforts of state and 
local governments through innovative development and implementation of 
the SIP (State Implementation Plan) program. However, in the middle of 
the game, not only were the rules changed, but the EPA took its ball 
and moved the field of play to another stadium. Its proposals on the 
enactment of new Ozone and PM 2.5 standards were not, and are not, 
based upon sound science. The lack of sound science in the regulation 
of these aspects of the Clean Air Act mirrors the flawed scientific 
premises underpinning the Kyoto Protocol.
    If we, as a nation, are to safeguard the future of our world and 
the environment we live in, steps must be taken to insure we are 
heading in the right direction. It is imperative that all decisions 
regarding the enactment of standards to regulate air--specifically 
tropospheric ozone, particulate matter, carbon monoxide, carbon 
dioxide, methane, nitrogen oxides, mercury, sulfur dioxides and 
chlorofluorocarbons--be based on sound science. Federal laws and 
regulations that are not based upon sound science may do little or 
nothing to stabilize the atmosphere, but could have drastic impacts on 
our economy.
    Based on what I've read and heard, I am concerned that if the 
United States were to ratify the Kyoto Protocol, the resultant negative 
economic impacts associated with our compliance would ripple across the 
nation in the form of increased electric rates, increased prices for 
consumer goods and services, and lost jobs. I find this even more 
alarming since Kyoto Protocol may not result in less greenhouse gas 
emissions worldwide. What will be gained if all of the so-called 
industrialized nations are mandated to reduce their greenhouse gases by 
30 percent, while at the same time some 130 developing nations are 
given exemptions? A prime example is Mexico. Under the Kyoto Protocol, 
Mexico is exempted. How soon we forget the mass exodus of U.S. 
industrial jobs to Mexico. Does anyone believe these industrial 
processes and the jobs associated to them are being performed without 
emissions?
    As previously mentioned, it's important to assess the potential 
impacts of the Kyoto Protocol in the U.S. in the context of the current 
Clean Air Act requirements. Such a review raises serious concerns.
POINT 1: Costs are already increasing
    We have seen electricity costs in the wholesale market rise in 
recent years. Although a portion of this increase can be attributed to 
transmission costs, environmental compliance issues and fuel costs are 
also important factors. Many Ohio electric generating plants have 
attempted to mitigate the cost of meeting emission reduction 
requirements by switching to the use of out-of-state low sulfur coal. 
The move to low sulfur coal, which must be transported to Ohio 
facilities, has impacted our economy in two ways--increased fuel costs 
and reduced demand for Ohio coal. I can only believe that ratification 
of the Kyoto Protocol would exacerbate this situation.
POINT 2: Increased electricity rates impact customers
    Customers bear the brunt of increased electric rates both in the 
cost of power and in what they pay for consumer goods and services. For 
instance, water and sewer plants rely on electricity for their 
operation--therefore, increased electric costs would increase what 
consumers pay for their water and sewer service. This is just one 
example of the trickle down impacts of increased energy costs.
POINT 3: Natural gas is not a viable alternative
    Over the past several years the cost of natural gas has become 
increasingly volatile. A combination of factors, including colder-than-
normal winters, governmental restrictions on drilling and market 
manipulation by natural gas suppliers has resulted in depleted gas 
reserves. As such, we have seen the cost of natural gas skyrocket at 
critical usage times, thereby limiting natural gas as a viable 
alternative to coal generation.
POINT 4: Current Clean Air Act Regulation and the Kyoto Protocol 
        seriously threaten Ohio's economy
    Affordable electricity generated in the State of Ohio is reliant 
upon the use of low-cost high sulfur coal. New clean coal technology 
has and is being developed which will reduce the emissions from Ohio 
coal and we look forward to the day that such technologies are 
commercially proven and affordable. Clearly, the future viability of 
Ohio's coal resources is important to our state's economy. As such, we 
question what the outlook would be for Ohio's coal industry if the 
impact of the Kyoto Protocol were combined with the challenges already 
confronting the industry under current Clean Air Act regulations. Will 
an entire economy wither away and die? How many jobs will be lost due 
to the closing of Ohio coal mines? How many workers will move out of 
state in an effort to support their families? How many industries will 
leave Ohio due to increased utility costs?
SUMMATION:
    Add to the previous four concerns the fact that the stock market 
has performed poorly for several years. That many of our senior 
citizens' retirement plans have deteriorated to the point of no return 
and some are looking to re-enter the job market to provide for daily 
necessities. That Ohio's method of school funding has been ruled 
unconstitutional. That school levies are failing across the state and 
even the wealthiest school districts are experiencing budgetary 
shortfalls. That prescription drugs and basic health care costs are 
skyrocketing. The cost of consumer goods seems to rise on a daily 
basis. And, that the Federal Government enacts unfunded mandates to be 
passed on to the states, which in turn passes them on to the local 
level.
    I believe that ratification of the Kyoto Protocol would have a 
disastrous impact on the economy of my city, the state of Ohio and the 
entire country. I urge this Congress and the Administration to oppose 
all efforts towards ratification of the Kyoto Protocol or any 
legislation that seeks to implement the basic tenets of the Protocol, 
including mandatory caps on CO2 emissions.
    Again I want to thank you for this opportunity to voice my opinion 
and my concerns regarding the Kyoto Protocol. I look forward to 
answering any questions you might have.
                                 ______
                                 
    The Chairman. Thank you. Mr. Obloy.

 STATEMENT OF GARY OBLOY, EXECUTIVE DIRECTOR, COMMUNITY ACTION 
                  COMMISSION OF BELMONT COUNTY

    Mr. Obloy. Good morning and thank you for the opportunity 
to testify today. Chairman Pombo, Congressman Ney, my name is 
Gary Obloy. I am the Executive Director of the Community Action 
Commission of Belmont County. The Community Action Commission, 
much like its 900 sister agencies from across this country, is 
a private non-profit organization whose mission is to combat 
poverty, its causes and consequences. To that end, the 
Community Action Commission administers over 20 Federal, state 
and privately funded programs targeted to low-income residents 
of our county. Specific programs include: The Home 
Weatherization Assistance Program, Head Start, emergency 
assistance provided under the Federal Emergency Management 
Agency and the Low-Income Home Energy Assistance Program.
    My testimony this morning is based on my belief that the 
employment situation in a particular area or region has an 
effect on the demand for services provided by agencies such as 
the Community Action Commission. Decreases in employment result 
in increased call for services, particularly those which are 
designed to help ease the financial burden families face during 
periods of financial distress.
    To illustrate, I would like to compare and contrast the 
Emergency Assistance in the 2002 and 2003 Low-Income Home 
Energy Assistance Program or LIHEAP, and unemployment 
statistics for that same period for Belmont County.
    During the winter of 2002, 1635 households received 
assistance under LIHEAP.
    March 2002 marked the end of the 2001-2002 LIHEAP program 
year. At that time, Belmont County's unemployment rate was 5.9 
percent.
    By March 2003, the unemployment rate increased to 7 
percent. In the course of 1 year, 400 persons lost their jobs 
in the county that has less than half its population in the 
civilian work force. We are a county of approximately 71,000 
people.
    During winter of 2003, LIHEAP assisted 1901 households, 
representing an increase of 16 percent or 266 families.
    LIHEAP has also established 150 percent of the poverty 
level as the income eligibility determinant. As part of our 
reporting requirements for the program, households that receive 
assistance are broken down into more specific income 
categories:
    Less than 75 percent of the poverty level;
    75 to 100 percent of the poverty level;
    101 to 125 percent; and
    126 to 150 percent.
    Further examination of the program shows significant 
increases in the number of households that fall into the lowest 
income categories for assistance.
    In 2002, 568 households receiving assistance had incomes of 
less than 75 percent of the poverty level, 230 were in the 75 
to 100 percent, 183 in the 101 to 126 category and 654 were in 
the 126 percent to 150 percent category.
    In 2003, 1061 households had incomes of less than 75 
percent of the poverty level. That is a near doubling of the 
number from the previous year. 373 were in the 75 to 100 
percent category, 262 in the 101 to 126 and 205 were in the 126 
to 150 percent category. These numbers represent the number of 
households. In total, the number of persons affected would be 
multiplied by a typical family of four; therefore, increasing 
the overall need for assistance.
    Expenditures on heating assistance for the program 
increased from $286,000 in 2002 to $343,000 in 2003, which 
represents a 20 percent increase. If we refer back to the 
increase in unemployment rate between March 2002 and 2003, the 
1.1 percent increase in unemployment can be contrasted to a 20 
percent increase in expenditures on heating assistance.
    This is only one program that includes offering assistance 
to unemployed workers. The effect on other safety net services 
would be similarly increased. As stated before, our agency 
alone offers more than 20 programs that could be accessed by 
individuals and families that are affected by the loss of 
income. Other social service agencies would also have an 
increased demand for assistance in meeting basic needs. Belmont 
County is part of the Appalachian region in Ohio and already 
has high poverty and unemployment rates above the average for 
the state and the nation.
    Social service programs play a vital role in an economy 
where unemployment is on the rise. With the loss of income to 
the family or individual, financial resources to pay for basic 
needs such as a mortgage, utilities and food diminishes.
    I understand the desires for a clean environment. I 
personally want to live in and want my children to live in a 
healthy environment that will enhance the quality of life. When 
making decisions regarding such issues as the Kyoto accords, we 
need to weigh all factors and try to reach conclusions which 
best serve the interest of our citizens. And one of the primary 
factors is jobs.
    Thank you for the opportunity to be here today and I would 
be pleased to answer any questions you might have.
    [The prepared statement of Mr. Obloy follows:]

             Statement of Gary Obloy, Executive Director, 
             Community Action Commission of Belmont County

    Good Morning. Chairman Pombo, members of the Committee on 
Resources, my name is Gary Obloy. I am the Executive Director of the 
Community Action Commission of Belmont County. The Community Action 
Commission, much like its 900 sister agencies from across this country, 
is a private non-profit organization whose mission it to combat 
poverty, its causes, and consequences. To that end, the Community 
Action Commission administers over twenty Federal, state, and privately 
funded programs targeted to low-income residents of our county. 
Specific programs include: the Home Weatherization Assistance Program, 
Head Start, the Emergency Food and Shelter Program funded by FEMA, and 
the Low-Income Home Energy Assistance Program.
    My testimony this morning is based on the premise, and my belief, 
that the employment situation in a particular area or region has an 
effect on the demand for services provided by agencies such as the 
Community Action Commission. Decreases in employment result in 
increased calls for services, particular those, which are designed to 
help ease the financial burden families face during periods of 
financial distress.
Impact to Social Services
    To illustrate, let us compare and contrast the 2002 and 2003 Low-
Income Home Energy Assistance Program (LIHEAP) and unemployment 
statistics for the same period.
    During the winter of 2002, 1,635 households received assistance.
    March 2002 marked the end of the 2001-2002 LIHEAP Program Year. At 
that time Belmont County's unemployment rate was 5.9%.
    In March 2003, the unemployment rate increased to 7%. In the course 
of one year, four hundred persons lost their jobs in a county that has 
less than half of its population in the civilian work force.
    During the winter of 2003, LIHEAP assisted 1,901 households, 
representing an increase of 16% or 266 families.
    LIHEAP has established 150% of the poverty level as the income 
eligibility determinant. As part of our reporting requirements for the 
program, households that receive assistance are broken down into more 
specific income categories:
    Less than 75% of the poverty level;
    75% to 100%;
    101% to 125%; and
    126% to 150%.
    Further examination of the program shows significant increases in 
the number of households that fall into the lowest income categories 
for assistance.
    In 2002, 568 of the households receiving assistance had incomes of 
less than 75% of the poverty level. 230 were in the 75% to 100% 
category. 183 were in the 101% to 126% category. 654 were in the 126% 
to 150% category
    In 2003, 1,061 households had incomes of less than 75% of the 
poverty level (a near doubling of the number from the previous year). 
373 were in the 75% to 100% category. 262 were in the 101% to 126% 
category, and 205 were in the 126% to 150% category. These numbers 
represent the number of households. In total, the number of persons 
effected would by multiplied by a typical family of 4 therefore 
increasing the overall need for assistance.
    Expenditures on heating assistance for the program increased from 
$286,942 in 2002 to $343,296 in 2003, which represents 20% increase. 
During this period the unemployment rate increased by only 1%, a 20 to 
1 ratio.
    This is only one program that includes offering assistance to 
unemployed workers. The effect on other ``safety net'' services would 
be similarly increased. As stated before, our agency alone offers more 
than 20 programs that could be accessed by individuals and families 
that are affected by the loss of income. Other social service agencies 
would also have an increased demand for assistance in meeting basic 
needs. Belmont County is part of the Appalachian region in Ohio and 
already has high poverty1 and unemployment rates above average for the 
state and nation2.
    Social service programs play a vital role in an economy where 
unemployment is on the rise. With the loss of income to the family or 
individual, financial resources to pay for basic needs such as a 
mortgage, utilities and food diminishes.
    I understand the desires for a clean environment. I personally want 
to live in, and I want my children to live in a healthy environment 
that will enhance the quality of life. When making decisions regarding 
issues such as the Kyoto accords, we need to weigh all factors and try 
to reach conclusion which best serve the interest of our citizens.
    Thank you for the opportunity to be here today and I would be 
pleased to answer any questions you might have.
    1 U.S. Census Bureau, 2000 Census Data
    2 Ohio Department of Job and Family Services. Office of Research, 
Assessment and Accountability, March 2003
                                 ______
                                 

    [Attachments to Mr. Obloy's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T7018.001
    
    [GRAPHIC] [TIFF OMITTED] T7018.002
    

    [A letter submitted for the record by Mr. Obloy follows:]
    [GRAPHIC] [TIFF OMITTED] T7018.004
    

    The Chairman. Thank you. Mr. Trisko.

           STATEMENT OF EUGENE M. TRISKO, ATTORNEY, 
                 UNITED MINE WORKERS OF AMERICA

    Mr. Trisko. Thank you, Mr. Chairman. Chairman Pombo, 
Chairman Ney, I am Gene Trisko, I am an attorney, I am here on 
behalf of the International Union of the United Mine Workers of 
America.
    UMWA represents the nation's organized coal miners and it 
applauds the Committee's interest in examining the impacts of 
the Kyoto agreement on coal dependent communities.
    No other labor group in this country stands to be affected 
more adversely by this agreement. The UMWA led efforts to 
engage other labor unions in this issue, culminating in the 
adoption of three resolutions by the Executive Council of the 
AFL-CIO opposing adoption and implementation of the Kyoto 
Protocol.
    The UMWA worked with the Senate in the development of the 
Byrd-Hagel Resolution, adopted by a vote of 95-0 in July 1997. 
That resolution advised the Clinton Administration not to 
negotiate a legally binding agreement in Kyoto that failed to 
involve commitments by developing nations, or that posed the 
risk of significant economic harm to the U.S. economy. The 
agreement negotiated in Kyoto failed both of the tests set 
forth by Senate Resolution Number 98.
    Your hearing today is timely, because proposals are now 
being considered before Congress to amend the Clean Air Act to 
include carbon dioxide limitations. The UMWA supports new 
emission control legislation for sulfur dioxide, nitrogen 
oxides and mercury, provided that coal mining jobs are 
protected, but opposes the addition of carbon dioxide controls 
to new Clean Air legislation.
    The basis for this position is straight-forward: there are 
available emission control technologies for reducing emissions 
of SO2, NOx and mercury in a manner that can improve the 
environment while protecting and even increasing job 
opportunities. But there are no commercially available means 
for reducing carbon emissions from coal-based power plants.
    Requirements to reduce electric utility CO2 emissions would 
be met principally by switching from coal to natural gas. Mines 
would close, coal miners would lose their jobs and coal 
communities would be economically devastated. Industries 
relying on low-cost electric energy would reduce their output 
and workforce, with effects felt across the Midwest economy.
    Since 1990, the Mine Workers have lost thousands of coal 
mining jobs as a consequence of fuel switching in response to 
the acid rain provisions of the 1990 Clean Air Amendments. We 
know what the stakes are here. Coal production in major eastern 
coal producing states declined by more than 113 million annual 
tons between 1990 and 2000, while more than 30,000 coal mining 
jobs were lost.
    Here in Ohio, coal production was 35 million tons in 1990 
and the state's coal mines employed 5900 mine workers. By 2000, 
output had declined to 22 million tons and employment had 
dropped to 2700 mine workers. That is a 37 percent drop in 
production and a 54 percent decline in coal mining jobs.
    Similar job losses have occurred in northern West Virginia, 
western Kentucky, Alabama, Virginia and Illinois.
    Kyoto poses unacceptable risks to coal-dependent 
communities. Numerous government and academic studies show that 
the national impacts would be measured in hundreds of billions 
of dollars of reduced annual economic output, millions of job 
losses and billions of dollars of household income that would 
not be available for food, housing, medical care and other 
essentials of life.
    Ohio depended on coal for 87 percent of its electric 
generation in the year 2000, compared to a national average of 
about 55 percent. The loss of high-paying coal mining and other 
industrial jobs resulting from switching from coal to higher 
cost forms of electric generation would send shock waves across 
the Ohio economy. These jobs are the engine of local economies 
across the Midwest, generating spinoff jobs in government, 
service and many other support industries.
    The DRI study cited in my testimony estimates that Kyoto 
would cause Ohio to lose 70,000 jobs by 2005 and $4.6 billion 
in real disposable personal income by 2010. These impacts would 
be largest in the manufacturing and service sectors, reflecting 
their dominant importance to the overall Ohio economy.
    Even larger potential impacts from the loss of coal 
production and coal-based electric generation are suggested by 
a recent Penn State study. An 80 percent reduction of coal 
production and use in Ohio could cause the loss of $29 billion 
of state economic output, $9.3 billion of household earnings 
and 261,000 jobs. An 80 percent reduction of coal use is 
consistent with upper-end estimates of the amount of fuel 
switching needed to comply with the Kyoto Protocol, as other 
witnesses today have testified.
    Meanwhile, global greenhouse gas concentrations are 
projected to increase into the foreseeable future, driven by 
the economic growth of developing nations exempt from the Kyoto 
Protocol.
    Developing nations have simply refused to discuss any 
longer-term emission limitation programs. The Vice Minister for 
Economic Development of China appeared three times before U.N. 
climate negotiations, delivering the same message: China will 
not be prepared to discuss greenhouse gas limits until it 
reaches the status of a medium-size industrial economy--in 50 
years.
    In a word, the climate change process before the United 
Nations is broken. Nothing that we do in this country can 
meaningfully affect future greenhouse gas concentrations.
    When all parties to the Rio climate treaty are prepared to 
discuss future emission limitation commitments, the stage will 
be set for a global agreement that may meet the tests of Senate 
Resolution Number 98. In the meantime, the United States should 
continue research and development of clean coal technologies 
that will enable us to use our vast coal resources in an 
environmentally efficient manner. These technologies are the 
key to the preservation of jobs and communities across the 
country, as well as the means for clean growth among developing 
nations.
    Thank you.
    [The prepared statement of Mr. Trisko follows:]

   Statement of Eugene M. Trisko, Attorney at Law, Berkeley Springs, 
       West Virginia, on behalf of United Mine Workers of America

    Mr. Chairman and members of the Committee:
    I am Eugene M. Trisko, an attorney in the District of Columbia. I 
am pleased to be here today to testify on behalf of the United Mine 
Workers of America (UMWA), the labor union representing the nation's 
organized coal miners. I have worked with the UMWA for some 20 years on 
issues related to the Clean Air Act and global climate change, 
including the development and implementation of the Clean Air Act 
Amendments of 1990, the Byrd-Hagel climate resolution, and the proposed 
Clear Skies Act.
    The UMWA has played a lead role among American labor unions in its 
involvement with the negotiation of the Kyoto Protocol. No other labor 
group in this country stands to be affected more directly--or more 
adversely--by this agreement. Since 1994, the UMWA has participated as 
an NGO in every major negotiating session of the United Nations 
Framework Convention on Climate Change, including the First Conference 
of the Parties in Berlin, Germany, and the 1997 negotiations in Kyoto, 
Japan. The UMWA led efforts to engage other labor unions in this issue, 
culminating in the adoption of three resolutions by the Executive 
Council of the AFL-CIO opposing adoption and implementation of the 
Kyoto Protocol.
    The UMWA worked closely with the Senate in the development and 
passage of the Byrd-Hagel Climate Resolution, adopted by a vote of 95-0 
in July 1997. That resolution advised the Clinton Administration not to 
negotiate a legally binding agreement in Kyoto that failed to involve 
commitments by developing nations, or that posed the risk of 
significant economic harm to the U.S. economy. In retrospect, the 
agreement negotiated in Kyoto failed both of the tests set forth by 
Senate Resolution No. 98.
    The UMWA applauds the Committee's interest in examining the impacts 
of the Kyoto agreement on coal-dependent communities. The UMWA's 
interests in protecting its members' jobs from the effects of a one-
sided, inequitable treaty extend to the protection of the hundreds of 
coal-dependent communities that risk virtual extinction if the Kyoto 
Protocol were implemented.
UMWA Positions on Clean Air and Climate
    The UMWA supports the enactment of new emission control legislation 
for sulfur dioxide, nitrogen oxides and mercury, provided that coal 
mining jobs are protected, but opposes the addition of carbon dioxide 
controls to such legislation in the absence of an equitable, truly 
global international agreement on greenhouse gas control.
    The basis for this position is straight-forward: there are 
available emission control technologies for reducing emissions of SO2, 
NOx and mercury in a manner that can improve the environment while 
protecting and even increasing job opportunities. But there are no 
commercially available means for reducing carbon emissions from coal-
based power plants.
    Requirements to reduce electric utility CO2 emissions would be met 
principally by switching from coal to natural gas or to other low-
carbon or no-carbon options. Coal mines would close, coal miners would 
lose their jobs, and coal communities would be economically devastated. 
The higher costs of generating electricity would ensure substantial 
electric rate increases for utility customers, particularly affecting 
lower- and fixed-income customers. Energy-intensive industries would 
feel increased pressure to locate their facilities offshore, in low-
wage developing countries exempt from Kyoto.
    Carbon dioxide, the principal greenhouse gas, is not regulated 
under the Clean Air Act, and is not associated with any known adverse 
health effects. The Clean Air Act is well suited for regulating 
emissions contributing to acid rain, ozone, and other harmful air 
pollutants. But the Clean Air Act does not give us jurisdiction over 
emissions in China, India and other countries that will play a critical 
role in determining future global concentrations of greenhouse gases.
    Even if fully implemented, the Kyoto agreement would do next to 
nothing to protect the global environment because developing nations 
will be the major source of future growth of greenhouse gas emissions. 
Until a global climate agreement is reached among developed and 
developing nations alike, the UMWA will oppose policies that would lead 
to the unilateral loss of U.S. jobs.
Coal-Switching Experience under the Clean Air Act
    The Mine Workers know first hand the impacts that government 
policies can have on coal miners and coal-dependent communities. Since 
1990, the UMWA has lost thousands of coal mining jobs as a consequence 
of fuel-switching in response to the Phase I acid rain provisions of 
the 1990 Clean Air Act Amendments. Coal production in major eastern 
coal producing states declined by more than 113 million annual tons 
between 1990 and 2000, while more than 30,000 coal mining jobs were 
lost.
    Most of these eastern production and job losses were the result of 
switching from higher- to lower-sulfur coals to meet the emission 
reductions required by Title IV. Dozens of mining communities have 
suffered catastrophic job losses across economically-depressed 
Appalachia and the rural Midwest. Nearly 60% of the SO2 reductions 
achieved in Phase I were accomplished through fuel switching and only 
about 28% were accomplished through installation of scrubbers. This 
coal switching was devastating for high-sulfur coal mining communities. 
Let me cite a few examples:
    <bullet> LIn Ohio, coal production was 35.3 million tons in 1990 
and the state's coal mines employed 5,866 mine workers. By 2000, output 
had declined to 22.3 million tons and employment had dropped to 2,688 
mine workers, a 36.8% drop in coal production and 54.2% decline in coal 
mining jobs.
    <bullet> LIn 1990, mines in northern West Virginia produced 56.6 
million tons and employed 10,053 coal miners. In 2000, production had 
fallen to 37.6 million tons and employment had declined to 3,712 
miners, a 33.6% drop in production and a 63.1% decline in employment.
    <bullet> LIn Illinois, coal production was 60.4 million tons in 
1990 and 10,018 coal miners were working. By 2000, production dropped 
to 33.4 million tons (a 44.6% reduction) and only 3,454 coal miners 
were working (a decline of 65.5%).
    <bullet> LIn western Kentucky, 5,586 coal miners produced 44.9 
million tons in 1990; by 2000, only 2,510 coal miners were employed (a 
drop of 55.1%) and production had declined to 25.8 million tons (a drop 
of 42.6%).
    Given this experience, the union is understandably sensitive to the 
risk of additional job losses resulting from global climate change 
initiatives, or through new multi-emission legislation pending before 
Congress. Coal communities across Appalachia and the Midwest already 
have been hard hit by the effects of fuel-switching. In most instances, 
the loss of high-paying mining and other industrial jobs is not made up 
by new jobs in these communities. Alternative employment, where it is 
available at all, tends to be in the lower-wage service sector, without 
comparable health or retirement benefits.
Economic Impacts of Kyoto
    We know well the risks that Kyoto poses to coal-dependent 
communities. A wealth of studies prepared prior to and subsequent to 
Kyoto show that implementation of that agreement could devastate coal-
dependent communities in Ohio and across all coal-producing states. The 
national impacts would be measured in hundreds of billions of dollars 
of reduced annual economic output, millions of job losses, and billions 
of dollars of household income that would not be available for food, 
housing, medical care and other essentials of life.
    These concerns are most acute in Ohio, which in 2000 depended on 
coal for 87 percent of its electric generation, compared to a national 
average of about 55 percent. The loss of high-paying coal mining and 
other industrial jobs resulting from switching from coal to other forms 
of electric generation would send shock waves across the Ohio economy. 
These jobs are the engine of local economies across the Midwest, 
generating spin-off jobs in government, service and many other support 
industries.
    The table below summarizes the employment and household impact 
estimates of five major studies focused on the impacts of reducing 
utility carbon emissions, including the Kyoto Protocol and a multi-
emission Clean Air Act scenario. References to these studies are 
provided at the end of my statement.
[GRAPHIC] [TIFF OMITTED] T7018.003

    The DRI study commissioned in 1998 by the UMWA and the Bituminous 
Coal Operators Association estimated that Kyoto would cause Ohio to 
lose 70,000 jobs by 2005 and $4.6 billion in real disposable personal 
income by 2010. Impacts would be largest in the manufacturing and 
services sectors, reflecting their dominant importance to the overall 
Ohio economy.
    These DRI Ohio estimates are for Case 2, which assumed that only 
58% of Kyoto reduction requirements would be met through domestic 
measures. If international emissions trading markets did not function 
effectively, the impacts could be much greater.
    Larger potential impacts from the loss of coal production and coal-
based electric generation are suggested by the Penn State study (2002). 
An assumed 80% reduction of coal production and use in Ohio could cause 
the loss of $29 billion of state economic output, $9.3 billion of 
household earnings, and 261,100 jobs. These estimates represent the 
average findings of four input-output scenarios for Ohio. An 80% 
reduction of coal utilization is consistent with upper-end estimates of 
the amount of fuel-switching needed to comply with the Kyoto Protocol.
    Other indirect effects, such as the reduction of tax revenues when 
coal mines or factories close, with a resulting loss of funding for 
local public schools and other government services, are generally not 
quantified in economic studies of the Kyoto agreement. These impacts--
and the devastating human and social consequences of unemployment, 
including increased mortality, divorce, crime and suicide--may well 
generate larger losses to society at large than those quantified by 
macroeconomic models (Brenner, 1984).
Coming to Grips with Climate
    Global greenhouse gas concentrations are projected to increase into 
the foreseeable future, driven predominately by the economic growth of 
developing nations exempt from the Kyoto Protocol. Russia recently 
signaled that it is not prepared to ratify Kyoto, compounding 
uncertainties about eventual implementation of the agreement. Last 
October, Russia startled the Eighth Conference of the Parties to the 
FCCC by linking ratification to forgiveness of its foreign debt. As it 
stands, Russia could reap billions of dollars of profits from the sale 
of its ``hot air'' carbon credits resulting from the collapse of its 
economy in the early 1990s. Without Russian (or U.S.) ratification, the 
Protocol cannot enter into force.
    Developing nations have steadfastly refused to discuss any longer-
term emission limitation programs. The Vice Minister for Economic 
Development of the Peoples Republic of China appeared three times 
before meetings of the FCCC, delivering the same message: China will 
not be prepared to discuss greenhouse gas limitations until it reaches 
the status of a medium-size industrial economy--in fifty years.
    A U.S. proposal on ``evolution'' of commitments introduced in Kyoto 
provoked a five-hour filibuster led by China, India and other members 
of the ``Group of 77'' developing countries. The topic of ``evolution'' 
was subsequently stricken from official FCCC agendas. It is forbidden 
even to discuss the issue of developing country commitments. In a word, 
the climate change process before the United Nations is broken.
    The deficiencies of the Kyoto Protocol and the UN FCCC process 
should be resolved through multilateral negotiations involving 
developed and developing countries, potentially leading to a new global 
agreement on greenhouse gases that recognizes the ``common but 
differentiated'' responsibilities of parties to the FCCC, with an 
equitable apportionment of emission limitation targets among all 
parties.
    When all parties to the FCCC are prepared to discuss future 
emission reduction and limitation commitments, the stage will be set 
for a global agreement that may meet the tests of Senate Resolution No. 
98. In the meantime, the U.S. should continue research and development 
of advanced clean coal technologies that will enable us to use our vast 
coal resources in an environmentally-efficient manner. These 
technologies are the key to the preservation of jobs and communities 
across the country, as well as the means for clean growth among 
developing nations.
    Thank you.
References
    U.S. Department of Energy, Energy Information Administration, 
Impacts of the Kyoto Protocol on U.S. Energy Markets and Economic 
Activity (DOE/EIA Rep. No. SR/OIAF/98-03, 1998).
    U.S. Department of Energy, Energy Information Administration, 
Analysis of Strategies for Reducing Multiple Emissions from Electric 
Power Plants: Sulfur Dioxide, Nitrogen Oxides, Carbon Dioxide, and 
Mercury and a Renewable Portfolio Standard (DOE/EIA Rep. No. SR/OIAF/
2001-03, 2001).
    Standard & Poor's DRI, The Impact of Meeting the Kyoto Protocol on 
Energy Markets and the Economy (for United Mine Workers of America and 
Bituminous Coal Operators Association, 1998).
    A. Rose and B. Yang, The Economic Impact of Coal Utilization in the 
Continental United States, 2010 (Pennsylvania State University, 
Department of Energy, Environmental, and Mineral Economics, 2002).
    Wharton Econometric Forecasting Associates, Inc., Global Warming: 
The Economic Cost of Early Action (WEFA, Inc., 1997).
    M. Harvey Brenner, Estimating the Effects of Economic Change on 
National Health and Social Well-Being (prepared for the use of the 
Joint Economic Committee, 98th Cong. 2nd Sess., S. Prt. 98-198, 1984).
                                 ______
                                 
    The Chairman. Thank you very much. Dr. Christy.

               STATEMENT OF DR. JOHN R. CHRISTY, 
                  ALABAMA STATE CLIMATOLOGIST

    Mr. Christy. Thank you, Chairman Pombo and Congressman Nay. 
I am John Christy, Professor of Atmospheric Science and 
Director of the Earth System Science Center at the University 
of Alabama at Huntsville. I am also Alabama's State 
Climatologist and I recently served as a Lead Author of the 
2001 Report of the United Nations' Intergovernmental Panel on 
Climate Change.
    I am pleased to speak to you today about the Kyoto 
Protocol.
    First, there seems to be a misconception that carbon 
dioxide is a dangerous pollutant. Life on earth depends on 
three things--sunlight, water and carbon dioxide. The plant 
world and all life that depends on it would end without carbon 
dioxide. In fact, millions of years ago, in concentrations 
several times higher than today, carbon dioxide promoted 
development of the biosphere which now surrounds us. Carbon 
dioxide simply is not a pollutant.
    Now based on out put from climate models, the Kyoto 
Protocol assumes that increasing CO2 will cause dangerous 
climate change. Real data, however, suggests otherwise.
    A common feature in climate model forecasts is that carbon 
dioxide increases will cause global surface temperatures to 
rise rapidly, along with the atmosphere above, from the surface 
to about 30,000 feet. That part is called the troposphere. That 
warming of the troposphere would further promote more warming 
in the surface temperature models.
    Over the past 24-plus years, various calculations of 
surface temperature do indeed show a rise of about .7 degree 
Fahrenheit. This is roughly half of what has occurred since the 
end of the 19th century. In the troposphere, however, various 
data, including the satellite data set that Dr. Roy Spencer of 
UAH and I produce, show much less warming, about .3 degree or 
less than half the warming observed at the surface. Models 
predict more warming in the atmosphere, the real world shows 
less.
    A new version of microwave satellite data has been produced 
but not yet published, by Remote Sensing Systems or RSS of 
California. Ten days ago, with great fanfare, the results of a 
curious comparison of our data against this RSS data appeared 
in Science Magazine's electronic edition. The article's authors 
observed that climate models agree more closely with the RSS 
data set. The article's strong implication was that since the 
RSS data had more closely matched the model output, it is 
likely more accurate than ours.
    Well, that same week, my paper came out in the Journal of 
Atmospheric and Oceanic Technology, which is not exactly coffee 
table material for folks around here, but instead of using 
forecasts and projections from mathematical models, I performed 
rigorous tests based on real observations, balloon datasets 
created by independent organizations. Our satellite data and 
the balloon data corroborate each other with remarkable 
consistency, showing only a slow warming of the bulk 
atmosphere. Climate models that forecast significant warming of 
the troposphere apparently just do not match the real world.
    Now the IPCC's 2001 conclusion that human induced global 
warming is clearly evident was based partly on a depiction of 
temperatures of the northern hemisphere over the past 1000 
years. This depiction showed little temperature change until 
about 1850, followed by a sharp upward rise, suggesting that 
recent warming was dramatic and linked to human effects. Since 
2001, however, two important research projects have shown 
something very different. Using a wider range of information 
from new sources, these studies indicate large temperature 
swings have been common over the past 1000 years and that 
temperatures warmer than today's were common in 50-year periods 
about 1000 years ago. These studies suggest that the climate we 
see today is not unusual at all.
    But even so, some people still think something should be 
done about CO2 as soon as possible.
    There have been many proposals to limit energy use. A 
fundament alternatives point that our nation needs to 
understand is that if any of these proposals, including the 
Kyoto Protocol, are implemented, they will have an effect on 
the climate so small that it cannot be detected. It is my 
business to monitor the climate with the highest precision 
possible, so I can say with confidence that none of these 
proposals will change what the climate is going to do enough to 
notice.
    Raising the cost of energy without any perceivable benefit 
is what Kyoto amounts to. The U.S. is often criticized for 
producing 25 percent of the world's anthropogenic CO2, we are 
rarely applauded for producing with that CO2, 31 percent of 
what the world wants and needs, its food, its technology, 
medical advances, defense of freedom and so on. Carbon dioxide 
is not a pollutant and the energy that comes from carbon-based 
fuels allows people to live better lives.
    In the mid-1970's, I was a missionary in Africa and I agree 
with the Chairman when he made the comment that if you want to 
see environmental degradation, go to a poor country. I lived 
with people who did not have access to energy. During the Arab 
oil embargo in the 1970's, I saw clearly that the people 
affected most by rising energy costs were the poor, both in the 
country I was in in Africa, as well as those back here, 
especially in my state of Alabama.
    In closing, let me note that at other hearings such as 
this, I have often been asked, if you were Congressman for a 
day, what would you do on this issue? I would do three things--
first, I would do no harm. I would not artificially force up 
energy prices, thereby hurting the poor. I would not undo the 
good things that have been done to clean the air and water. I 
noted earlier that CO2 is not a pollutant, that other emissions 
such as sulfur oxides, nitrogen oxides and mercury mentioned 
earlier are potentially harmful, and the apparent absence of 
global warming should not be used as an excuse to overlook 
other types of pollution.
    Second, I would help America do what the innovative people 
of this nation do best--I would help scientists and engineers 
discover new sources of low carbon energy.
    And three, I would work to enhance our national 
infrastructure to be more resilient to floods, drought, 
tornadoes, hurricanes and other weather events that we know are 
going to continue whether the climate changes or not.
    Thank you, Mr. Chairman, I will be glad to answer any 
questions at the appropriate time.
    [The prepared statement of Dr. Christy follows:]

  Statement of John R. Christy, Professor of Atmospheric Science and 
  Director of the Earth System Science Center, University of Alabama, 
                          Huntsville, Alabama

    I am John Christy, Professor of Atmospheric Science and Director of 
the Earth System Science Center at the University of Alabama in 
Huntsville or UAH. I am also Alabama's State Climatologist and recently 
served as a Lead Author of the U.N.'s Intergovernmental Panel on 
Climate Change.
CARBON DIOXIDE
    The concentration of carbon dioxide (CO2) is increasing in the 
atmosphere due primarily to the combustion of fossil fuels. Fortunately 
(because we produce so much of it) CO2 is not a pollutant. In simple 
terms, CO2 is the lifeblood of the planet. The vegetation we see around 
us would disappear if not for atmospheric CO2. This green world largely 
evolved during a period when the atmospheric CO2 concentration was many 
times what it is today. Indeed, numerous studies indicate the present 
biosphere is being invigorated by the human-induced rise of CO2. In and 
of itself, therefore, the increasing concentration of CO2 does not pose 
a toxic risk to the planet. In other words, carbon dioxide means life 
itself. CO2 is not a pollutant.
    As an aside, it is clear that other emissions may be called 
pollutants, e.g. sulfur oxides, nitrogen oxides and mercury. 
Controlling these is a completely separate issue from controlling 
emissions of CO2 and so will not be discussed here.
    It is the secondary impact of increasing CO2 that may present 
challenges to human life in the future. It has been proposed that CO2 
increases could cause climate change of a magnitude beyond what 
naturally occurs in the climate system so that costly adaptation or 
significant ecological stress might occur. For example, enhanced sea 
level rise and/or reduced rainfall would be two possible effects likely 
to be costly to those regions so affected. Data from the past and 
projections from climate models are employed to provide insight on 
these concerns.
CLIMATE MODELS
    Will increases in CO2 affect the climate significantly? Are 
significant changes occurring now? Climate models suggest the answer is 
yes, real data suggests otherwise.
    Climate models attempt to describe the ocean/atmospheric system 
with equations which approximate the processes of nature. No model is 
perfect because the natural system is incredibly complex. One modest 
goal of model simulations is to describe and predict the evolution of 
the ocean/atmospheric system in a way that is useful to discover 
possible environmental hazards which lie ahead. The goal is not to 
achieve a perfect forecast for every type of weather in every unique 
geographic region, but to provide information on changes in large-scale 
features. If in testing models one finds conflict with even the 
observed large scale features, this would suggest that at least some 
fundamental processes, for example heat transfer, are not adequately 
described in the models.
    A common feature of climate model projections with CO2 increases is 
a rise in the global surface temperature as well as an even more rapid 
rise in the layer up to 30,000 feet called the troposphere.
    Over the past 24+ years various calculations of surface temperature 
indeed show a rise of about 0.7 F. This is roughly half of the total 
rise observed since the 19th century. In the lower troposphere, 
however, various estimates which include the satellite data Dr. Roy 
Spencer of UAH and I produce, show much less warming, about 0.3 F--an 
amount less than half that observed at the surface. The real world 
shows less warming in the atmosphere, not more as models predict. Are 
these data reliable?
    A new version of the microwave satellite data has been produced, 
but not yet published, by Remote Sensing Systems or RSS of California. 
Two weeks ago a paper was published in Science magazine'' electronic 
edition which used a curious means of testing our UAH version against 
RSS. <SUP>1</SUP> The paper cited climate model results which agreed 
more with RSS, because RSS data showed about 0.4 F more warming than 
UAH's data for this same layer called the mid-troposphere. UAH's total 
warming for this layer was about 0.05 F. (This layer is higher in the 
atmosphere than the lower troposphere mentioned earlier with its 0.3 F 
warming.) The strong implication of the paper was that since RSS was 
more consistent with the model output, it was likely a more accurate 
dataset than ours.
---------------------------------------------------------------------------
    \1\ Santer, B., et al., 2003. Influence of Satellite Data 
Uncertainties on the Detection of Externally-Forced Climate Change. 
ScienceExpress, 10.1126/science.1082393
---------------------------------------------------------------------------
    That same week, with much less fanfare, my latest paper appeared in 
the Journal of Atmospheric and Oceanic Technology. <SUP>2</SUP> Unlike 
the paper in Science magazine, I performed several rigorous tests to 
estimate the potential error of our UAH satellite data. I used real 
observations from balloon datasets created by independent 
organizations, some with data from as many as 400 different balloon 
stations. Our UAH satellite data and the balloon data corroborated each 
other with remarkable consistency, showing only a slow warming of the 
bulk of the atmosphere. This evidence indicates that the projected 
warming of the climate model had little consistency with the real 
world. This is important because the quantity examined here, lower 
tropospheric temperature, is not a minor aspect of the climate system. 
This represents most of the bulk mass of the atmosphere, and hence the 
climate system. The inability of climate models to achieve consistency 
on this scale is a serious shortcoming and suggests projections from 
such models be viewed with great skepticism.
---------------------------------------------------------------------------
    \2\ Christy, J.R. et al., 2003. Error estimates of Version 5.0 of 
MSU-AMSU bulk atmospheric temperatures. Journal of Atmospheric and 
Oceanic Technology, 20:613-629.
---------------------------------------------------------------------------
    Changes in surface temperature have also been a topic of 
controversy. The conclusion in IPCC 2001 that human induced global 
warming was clearly evident was partly based on a depiction of the 
Northern Hemisphere temperature since 1000 A.D. This depiction showed 
little change until about 1850, then contains a sharp upward rise, 
suggesting that recent warming was dramatic and linked to human 
effects. <SUP>3</SUP> Since IPCC 2001, two important papers have shown 
something else. <SUP>4</SUP> Using a wider range of information from 
new sources these studies now indicate large temperature swings have 
been common in the past 1000 years and that temperatures warmer than 
today's were common in 50-year periods about 1000 years ago. These 
studies suggest that the climate we see today is not unusual at all.
---------------------------------------------------------------------------
    \3\ Mann, M.E., R.S. Bradley, and M.K. Hughes, 1999: Northern 
Hemisphere temperatures during the past millennium: Inferences, 
uncertainties, and limitations. Geophys. Res. Lett., 26, 759-762.
    \4\ Soon, W. and S. Baliunas, 2003: Proxy climatic and 
environmental changes of the past 1000 years. Clim. Res., 23, 89-110. 
Esper, J. E.R. Cook, F.H. Schweingruber, 2002: Low-frequency signals in 
long tree-ring chronologies for reconstructing past temperature 
variability. Science 295, 2250-2253.
---------------------------------------------------------------------------
WEATHER EXTREMES AND CLIMATE CHANGE
    I want to encourage the Committee to be suspicious of media reports 
in which weather extremes are given as proof of human-induced climate 
change. Weather extremes occur somewhere all the time. For example, in 
the year 2000 the 48 conterminous states, the U.S. experienced the 
coldest combined November and December in 106 years. We've just again 
witnessed a colder than average winter in the Eastern U.S. with some 
record snowfalls here and there, while the California mountains had one 
of the coldest and snowiest April's ever. However, looking at these 
events does not prove the country is experiencing global cooling any 
more than a hot July represents global warming.
    Has hot weather occurred before in the US? In my region of Alabama, 
the 19 hottest summers of the past 108 years occurred prior to 1955. In 
the Midwest, of the 10 worst heatwaves, only two have occurred since 
1970, and they placed 7th and 8th. Hot weather has happened before and 
will happen again. Such events do not prove climate change is 
occurring.
    Similar findings appear from an examination of destructive weather 
events. The intensity and frequency of hurricanes have not increased. 
The intensity and frequency of tornadoes have not increased. The same 
is true for thunderstorms and hail. (Let me quickly add that we now 
have more people and much more wealth in the paths of these destructive 
events so that the losses have certainly risen, but that is not due to 
climate change but to progress.) Droughts and wet spells have not 
statistically increased or decreased. In a paper published last year I 
demonstrated from a rigorously constructed temperature dataset for 
North Alabama that summer temperatures there have actually declined 
since the 19th century. <SUP>5</SUP> Similar results have been found 
within states from California to Georgia.
---------------------------------------------------------------------------
    \5\ Christy, J.R., 2002: When was the hottest summer? A State 
Climatologist struggles for an answer. Bull. Amer. Meteor. Soc. 83, 
723-734.
---------------------------------------------------------------------------
    One century is a relatively short time in terms of climate time 
scales. When looking at proxy records of the last 2000 years for 
drought in the Southwest, the record suggests the worst droughts 
occurred prior to 1600. The dust bowl of the 1930's appears as a minor 
event on such a time scale. This should be a warning that with or 
without any human influence on climate we should be prepared for a 
significant, multi-year drought. (Low cost energy would help mitigate 
the costs of transporting water to the stricken areas.)
    When considering information such as indicated above, one finds it 
difficult to conclude the climate change is occurring in the U.S. and 
that it is exceedingly difficult to conclude that part of that change 
might have been caused by human factors.
    In the past 150 years, sea level has risen at a rate of 6 in. 
<plus-minus> 4 in. (15 cm <plus-minus> 10 cm) per century and is 
apparently not accelerating. Sea level also rose in the 17th and 18th 
centuries, obviously due to natural causes, but not as much. Sea level 
has been rising naturally for thousands of years (about 2 in. per 
century in the past 6,000 years). If we look at ice volumes of past 
interglacial periods and realize how slow ice responds to climate, we 
know that in the current interglacial period (which began about 11,000 
years ago) there is still more land ice available for melting, implying 
continued sea level rise with or without climate change.
    One of my duties in the office of the State Climatologist is to 
inform developers and industries of the potential climate risks and 
rewards in Alabama. I am very frank in pointing out the dangers of 
beach front property along the Gulf Coast. A sea level rise of 6 in. 
over 100 years, or even 50 years is minuscule compared with the storm 
surge of a powerful hurricane like Fredrick or Camille. Coastal areas 
threatened today will be threatened in the future. The sea level rise, 
which will continue, will be very slow and thus give decades of 
opportunity for adaptation, if one is able to survive the storms.
    The main point I stress to state and local agencies as well as 
industries is that they invest today in infrastructure that can 
withstand the severe weather events that we know are going to continue. 
These investments include extending flood way easements, improvements 
in storm water drainage systems and avoiding hurricane-prone coastal 
development, among other actions. There are ways to reduce our 
vulnerabilities (i.e. enhancing our resilience) by increasing the 
investment today in the proper infrastructure or by avoiding future 
disasters with common sense building regulations. Our economy is 
affected much more by these extreme events which arrive every few years 
or decades versus whatever slow changes may occur due to human-induced 
climate change. The economic payoff would be tangible for such 
investments. The payoff for restricting energy use and economic 
activity for an unknown (and likely unknowable) future based on climate 
change scenarios is much less profitable for all concerned.
KYOTO'S IMPACT ON CLIMATE AND ECONOMY
    One week ago today, the BBC published a report noting that the 
European Union has again exceeded their annual carbon dioxide targets 
under the Kyoto agreement. So in countries with apparently strong 
motivation for reducing carbon dioxide the treaty is failing. But that 
really is not a problem. (Under the Kyoto Treaty the U.S. was asked to 
reduced CO2 emissions 7% below 1990 levels.)
    There have been many proposals to reduce CO2 emissions, some in 
this country, both more and less harsh than the Kyoto Protocol. In one 
way or another, each proposal seeks to limit energy usage through 
direct or indirect increases of the cost over market prices. A 
fundamental fact that our nation needs to understand is that any of 
these proposals if implemented, will have an effect on the climate so 
small that we would not be able to detect it. This is something I can 
speak to as my work focuses on precise measures of climate quantities. 
The evidence convinces me that none of these proposals would change to 
a noticeable degree whatever the climate is going to do. Raising the 
cost of energy with no detectable result generally falls into the 
category of a waste of American income.
    I am decidedly an optimist about this situation. Our country is 
often criticized for producing 25% of the world's anthropogenic CO2. 
However, we are rarely recognized and applauded for producing, with 
that same CO2, 31% of what the world wants and needs; it's food, 
technology, medical advances, defense of freedom, and so on. 
<SUP>6</SUP> Today this is done primarily with the burning of carbon, 
but in the future will come from other inexpensive and efficient 
sources. For example, the U.S. produces a unit of GDP using about 55% 
of the energy required to produce the same unit in 1970. The U.S. is 
decarbonizing its economy and this will continue. Even though carbon 
dioxide is not a pollutant, and energy from carbon allows people to 
live better lives, we can look forward to new sources of energy as the 
genius of America works on the next source of inexpensive energy.
---------------------------------------------------------------------------
    \6\ World Development Indicators, World Bank 2001 (for year 2000), 
U.S. is $9,388B, World is $31,337B.
---------------------------------------------------------------------------
    I often mention that early in my career I served as a missionary in 
Africa. I lived upcountry with people who did not have access to useful 
energy. Put simply, access to energy means life, it means a longer and 
better life. I watched as women walked in the early morning to the 
forest edge, often several miles away, to chop wet green wood for fuel. 
They became beasts of burden as they carried the wood on their backs on 
the return trip home. Wood and dung are terrible sources of energy, 
with low useful output while creating high pollution levels. Burning 
wood and dung inside the homes for cooking and heat created a 
dangerously polluted indoor atmosphere for the family. I always thought 
that if each home could be fitted with an electric light bulb and a 
microwave oven electrified by a coal-fired power plant, several good 
things would happen. The women would be freed to work on other more 
productive pursuits, the indoor air would be much cleaner so health 
would improve, food could be prepared more safely, there would be light 
for reading and advancement, information through television or radio 
would be received, and the forest with its beautiful ecosystem could be 
saved. Access to inexpensive, efficient energy would enhance the lives 
of the Africans while at the same time enhance the environment.
    There are parallels in this country. Any of the proposals to reduce 
energy consumption by mandate (promoted in the state legislatures and 
the congress) would do nothing measurable to reduce the climate impacts 
of CO2. However, they would cause increases in energy costs (i.e. 
taxes). These additional taxes would fall disproportionately on the 
poor, who buy gasoline and home-heating at the same rate as everyone 
else. Their lives would be made more precarious as a result.
    In Hearings such as this we are often asked at the close, ``If you 
were a congressman for a day, what would you do on this issue?--My 
answer is two fold. First, I would do no harm, I would not force energy 
prices up and thereby hurt the U.S. economy in general and the poor in 
particular. <SUP>7</SUP> Second, I would help America do what the 
innovative people of this nation do the best, help scientists and 
engineers discover the next source of low carbon energy, while building 
up our resilience to weather events, like floods, droughts, tornadoes, 
hurricanes that we know are going to continue, climate change or not.
---------------------------------------------------------------------------
    \7\ Energy Information Administration, Impacts of the Kyoto 
Protocol on U.S. Energy and Economic Activity (Washington D.C.: U.S. 
Department of Energy), http://www.eia.doe.gov/neic/press/press109.html. 
Costs estimated for a reduction of CO2 by 3 % (not Kyoto's 7 %) below 
1990 emissions are between $125 and $280 billion per year of an economy 
of $9,425 billion, or about 1 to 3 %.
---------------------------------------------------------------------------
                                 ______
                                 

    [A letter submitted for the record by Mr. Christy follows:]
    [GRAPHIC] [TIFF OMITTED] T7018.005
    
    [GRAPHIC] [TIFF OMITTED] T7018.006
    
    [GRAPHIC] [TIFF OMITTED] T7018.007
    

    The Chairman. Thank you. I thank the entire panel for their 
testimony.
    Dr. Christy, I believe it was last week there was a news 
report about a new study that had come out about a new round of 
global cooling that we were entering into. Are you familiar 
with that? Have you had a chance to see that yet?
    Mr. Christy. There are several aspects of studies that have 
come out dealing with the North Atlantic anomaly and other 
types of circulation shifts in the northern hemisphere that 
point to a shift toward cooler northern hemispheric weather, 
principally to affect eastern North America and Europe.
    We are pretty bad at predicting the climate in the future--
think of a weather forecast a week from now. So there is some 
support that we were in a warm phase in the past 20-25 years 
and now we are going to a cooler phase, but I would not bet too 
much on that.
    The Chairman. One of the reasons that I asked you that 
question is that for the last 20 years, we have heard about 
global warming and it seems like in the last year or year and a 
half, that has changed to global climate change, and now we 
talk about global climate change because everything seems to be 
a result of the global climate change. In the west, we have 
gone through a drought and a lot on the extreme side of this 
debate are saying well, that is because of this global climate 
change, we are going through a drought.
    I remember the worse drought in my memory in the west was 
during the mid-1970's and nobody said it was because of global 
climate change then, it was the weather. But now we are blaming 
everything on that.
    Could you elaborate a little bit on your experiences in 
Africa. I know that you had that in your written testimony and 
I am interested in what your perspective is on that.
    Mr. Christy. Actually I lived in Marin County in 1976, 
1975, during those years of tremendous drought.
    The Chairman. When you guys were putting water in your 
bathtub and using it to save.
    Mr. Christy. That is right.
    When I lived in Africa, I think one of the things that 
really struck me about energy was to see in the crack of dawn 
hundreds of women from the village leave their homes, walk to 
the edge of the forest, chop down the forest, take these 
bundles of green wet wood back to their homes to burn for fuel. 
If you ever want to see the most inefficient fuel in the world, 
burn wet green wood.
    In their homes, in these mud huts, the air quality was 
tremendously poor. They had tuberculosis, everything like that. 
And it really took women away from a lot less burdensome 
activities in the economy. So I always thought--and one of the 
reporters took this line and vilified me with it--that if you 
put a series of coal-fired power plants in Africa, you would 
solve a lot of environmental problems. You would preserve the 
forest, you would put people to better work, put a light bulb 
and a microwave oven in an African home, you would increase 
their air quality, their productivity and so on.
    So I think the point we agree on is that if you want to see 
environmental degradation, go to the Third World.
    The Chairman. I agree with you completely on that. I had 
the opportunity to spend quite a bit of time in a number of 
African countries and when you go inside a mud hut with the 
fire in the middle of the floor that they use for cooking and 
warmth and everything else, it is a humbling experience to see 
what they do in their daily life.
    Another thing that you said was that the effects of the 
Kyoto Treaty were so small on the environment as a whole, and 
our previous panel talked about--I believe it was Mr. Murray 
said that--if I get this right--that we would have less than a 
.2 degree Celsius increase in temperature over the next 100 
years with Kyoto and without Kyoto, it would take 96 years to 
reach that point.
    That seems to be the consensus. If you look at the models 
that they are using, everybody seems to agree that using their 
own models, that that is where we are going to end up. Well, 
when you talk about the job loss, the impacts on the economy, 
for what truly is a dubious advantage to entering into this, 
the Kyoto Treaty really does not achieve even what they want it 
to achieve.
    Mr. Christy. I could go in a lot of directions on that one, 
depends on what the Kyoto Treaty really wants to achieve.
    The Chairman. Well, what they say they want.
    Mr. Christy. OK. You are right. Climate models can give you 
numbers that go out to 20 decimal places, they can show you 
that if you do Kyoto or you do not do Kyoto, whatever decimal 
place you want, you might determine. In the real world, where 
we use satellites and instruments on the ground and so on like 
that to try to determine exactly what the climate is doing, we 
do not get that kind of precision. So this just becomes noise 
in the signal, whatever Kyoto might do, we could not even 
detect it.
    By calling it climate change, then the extreme 
environmentalists can look at hurricanes or flood or drought 
and identify that, as you said, as caused by humans rather than 
looking at the history of the world and saying these droughts 
have happened before, these hurricanes have happened before. 
And on the IPCC, as Lead Author, we nailed that point very 
hard, that hurricanes are not increasing, tornadoes are not 
increasing, floods and droughts are not increasing. None of 
that stuff is happening, storms are not increasing. And we know 
that because we can count those things and they just are not 
increasing.
    The Chairman. Well, thank you. I am going to recognize Mr. 
Ney now.
    Mr. Ney. Thank you, Mr. Chairman.
    One of the questions I had of Mr. Trisko, a lot of times we 
are told do not worry, when one industry goes down, something 
will take its place. For example, we heard when the 
manufacturing industry was starting to go down, you know, the 
computer companies will take over. We all saw what happened to 
dot.coms, how many people were unemployed.
    So the question I have is for those who say do not worry 
about this because if Kyoto is implemented here, there will be 
environmental companies that will come into being and they will 
employ people. Do you have any comment on that?
    Mr. Trisko. Congressman Ney, for all the studies that have 
been done prior to Kyoto and subsequent to Kyoto, that have 
examined the impacts of the agreement on the U.S. economy and 
on employment, all of the employment data that are cited, for 
example, in my testimony, and I cite half a dozen studies, and 
generally the job impacts range north of a million jobs, on the 
order of between one and two and a half million jobs. Those are 
net job impacts, those are net job losses in the economy.
    So there is a much larger gross displacement of employment 
in the areas of the country that would be particularly 
affected. And we meet here today in the epicenter of the region 
that would feel the most profound impact. Because the Midwest 
overall is responsible for 70 percent of electric generation 
from coal, the impact of Kyoto in this region will be far 
greater than in any other region of the country. So for this 
region, it is reasonable to expect that there will be a 
significant large net employment change.
    The most recent study that I cited in my testimony is the 
Penn State study that assumed an 80 percent displacement of 
Ohio coal and the replacement of that coal with natural gas 
generation and natural gas assumed cost of $5.00 per million 
BTU, which now looks fairly conservative as an assumption. That 
study estimated a net loss of 260,000 jobs for the Ohio 
economy. So while there may be some jobs created, there will be 
a much larger number of jobs displaced.
    Just by way of information, within the labor community, 
there has been a segment representing some of the higher tech 
or service industries that see that there may be some potential 
for job creation and they have touted a school of thought 
called ''Just Transition`` that we should make a just 
transition from the way our economy operates now to some kind 
of future higher tech economy. For the traditional 
manufacturing unions and production unions of the AFL-CIO, the 
term for just transition is just unemployment.
    Mr. Ney. I note that it would hit very hard the 
manufacturing jobs, but it would hit small business as well. 
That is why we have also on the panel a local mayor and Gary 
Obloy who works with the poor. People are already having 
trouble. I just think it filters through, it is going to hit 
extremely hard and that is just going to filter all the way 
down. It will affect white collar, blue collar, I think in 
particular it will just really devastate the amount of jobs we 
have left, especially in the blue collar area.
    One other question I had for Mr. Christy, and I have talked 
to scientists in the past on this, and I have been to China. 
You ask them what do you do with your toxic waste. It is easier 
to get an answer out of Saddam Hussein than it is out of the 
Chinese government where they put their toxic waste.
    If you look at the entire situation of trying to clean up 
the world, you have all these countries--India and China and 
Mexico--all in the plan, it would probably be easier to justify 
in a sense how this would work, looking at it from that point 
of view. But I have talked to a lot of scientists and I have 
asked them the question, you know, if you exempt those 
countries and they still pollute, which they do, and I have 
physically seen it in those countries, how on earth does that 
clean up the environment. And some of the answers you get will 
not have sound science, it is an answer that is--somebody will 
tend to be just over-zealous in an environmental cause, they 
cannot give you a scientific rationale.
    My question is, of the scientists--I do not know if you can 
answer this, but of the scientists on earth, to a great 
portion, are they in one direction on this issue or is it split 
in half? Do you have any idea?
    Mr. Christy. Well, I can say this, actually in terms of 
people who study climate, who are true climatologists, there 
are not that many, and they are by and large persuaded by the 
observed data that we have that do not show that there is a 
significant problem with the climate. It is just not going in a 
dangerous direction at all.
    And back to your earlier comment, I would make it clear 
that there is a big difference between the toxic waste and 
stuff that you see in these other countries and carbon dioxide 
in the atmosphere. One is kind of pretty good and the others 
are bad. So if you could think of it this way, if you increase 
energy access in those countries, you could trade good carbon 
dioxide for cleaning up bad toxic waste.
    Mr. Ney. If people have not traveled outside the United 
States, especially to certain countries, they do not have rules 
and regulations--China works the average worker with 1 day off 
a month, 15 cents an hour. When the average woman turns 28 
years old, she is dismissed from her job because she is worn 
out. They do not have regulations and labor departments. They 
do not follow the rules, they don't follow the human side of 
the rules, they do not follow certainly the environmental side. 
You will not get a lot of answers where they are going to dump 
toxic waste. And that is in a lot of countries that we deal 
with.
    So when we talk about cleaning up the environment, we have 
this other massive amount of violations of the environmental 
laws and we would never catch up. The statement was made 
earlier, you know, about the battery acid you are cleaning up 
while the neighbor is dumping more in.
    You can appreciate people's point of view from a sound 
science, if they approach it that way it is a little bit easier 
to understand. That is why I wondered how the scientific 
community weighed in on this.
    Mr. Chairman, I would just like, from my end of it, I would 
just like to encourage everyone in the audience to take copies 
of today's testimony which is over here to my right on the 
table. Also, Mr. Chairman, I would like to recognize Kurt 
Christensen and Jack Belcher from your staff and J.P. Dutton 
from our staff who have worked on these issues. Also in the 
back of the room I see Jerry Kapisky, who has sat through many, 
many hearings in the Ohio House with me. We appreciate seeing 
Jerry here in the audience.
    Mr. Chairman, just to conclude from my end of it, I want to 
thank again everybody for being involved. I want to thank you 
for your willingness to come here, your willingness to listen 
to us and your sincere desire to be fair when it comes to this 
issue which is so important. Thank you.
    The Chairman. Thank you.
    I just had a couple more questions before we adjourn the 
hearing. Mr. Obloy, could you give me the economic and social 
profile of the average LIHEAP recipient in your community?
    Mr. Obloy. I would like to answer that in a twofold answer. 
I testified earlier that we had some additional applicants this 
year. Approximately half of those applicants had lost their job 
during the previous year, the other half came in because of 
increased utility costs, which leads me to say that really the 
typical applicant we would see with the home energy assistance 
program, I am going to call her Jackie, that is not her real 
name, for protection of confidentiality. Jackie is a 73 year 
old widow. She has an income of $711 a month Social Security. 
She spends $350 for rent, probably another $185 or so for 
utilities, gas, electric, water, sewerage, telephone. She 
receives $71 a month in food stamps, spends that money and an 
additional $100 for more food and other required items. She 
continues to pay $32 a month for life insurance. She is covered 
by Medicare, has no prescription coverage, has to rely on 
Wheeling Health Right to provide medicine that she needs.
    She is left with--so her total expenses for the month are 
about $668. That leaves her about $43 a month for disposable 
income. Any increase, any increase whatsoever, in a cost of 
energy for people like Jackie is going to have a devastating 
and tremendous effect on her, her ability to just survive and 
make decisions as to what she is going to use her money for--is 
it going to be medicine, is it going to be food, is it going to 
be to keep her house warm.
    And it is people like Jackie that we need to keep in mind 
when we make decisions that are going to affect energy, the 
cost of energy and the people that we have an obligation to 
care for. Thank you.
    The Chairman. Thank you.
    Mr. Mayor, I appreciate your testimony. You look at the 
testimony we have had here today and, you know, to start off 
with, the companies that are looking at things on a global 
scale and a big scale, the workers who obviously are concerned 
about their jobs and their future, for Mr. Obloy about those 
that have a real tough time in dealing with all of this, but a 
lot of what you have to deal with is that small business owner 
who may not be directly related to this industry, but if this 
industry is gone, so is he. And that impact on your community. 
It has to be an ongoing problem for you to deal with.
    Mayor Homrighausen. Most definitely. You know, as a 
municipal electric community, we have to watch our costs. That 
is why the majority of business and industry that is in Dover 
is located in Dover, and any increase we incur affects them 
drastically. We just lost A.K. Steel 2 years ago, been 
fortunate to put two other concerns back into the plant, but 
you know, any impact that the Kyoto Treaty would have on the 
coal industry has a direct impact on the city of Dover because 
we use coal to generate electricity or a portion of our 
electric.
    The EPA, here again, with a PM2.5 and the ozone, to my 
knowledge, I do not believe that there is technology available 
yet that will measure PM2.5. I do not believe that there is any 
technology available that will measure the mercury reductions 
that they are looking for. And if my memory serves me correct, 
as we were--we just met in Washington in February on this issue 
with the EPA--mercury reductions, I believe it is going to be 
50 pounds emissions that you are allowed to emit per year and a 
scrubber that would affect some of the, and remove some of the 
mercury would cost the city of Dover $4 million to put a 
scrubber in. And we would have to put a scrubber in. However, 
the scrubber would do absolutely no good, because we only 
emitted 5.5 pounds last year. So you would have to add that to 
our electric bill, and anything else that is required.
    We appreciate, Congressman Ney and you, Chairman Pombo, for 
giving us an opportunity to speak.
    The Chairman. Well, thank you. I thank the panel for their 
testimony and answering the questions. One thing that is very 
important to me is that we get Members of Congress outside of 
Washington. I talked to Bob about doing this, coming out here 
and having real people have the opportunity to tell their side 
of it, and what the impacts are. Getting this on the 
Congressional Record, making this part of the decisionmaking 
process is important, because a lot of times back in 
Washington, you get isolated, you get isolated inside the 
debate that exists there and it is important that we move 
outside of that, that we listen to real people, that we do as 
much as we can in terms of bringing Congress back to the people 
where it belongs. So this is an effort that I am making. 
Congressman Ney has been very helpful in helping us to do this. 
As Chairman of House Administration, he has made it possible 
for my Committee to do these field hearings and to come out and 
listen to people. So I thank him for doing that and for 
welcoming me into this community.
    All of you, thank you very much for attending the hearing. 
The Resources Committee welcomes any written comments that 
those in the audience wish to submit. These comments will be 
made part of the official hearing record that will be published 
by the Government Printing Office. These comments should be 
mailed within the next 2 weeks to the House Committee on 
Resources and the address is 1324 Longworth House Office 
Building, Washington, D.C. 20515.
    So thank you all very much. I thank the panel and the 
previous panel for your testimony. It was productive. Thank 
you.
    [Whereupon at 11:55 a.m., the Committee was adjourned.]

                                   - 

</pre></body></html>
